<html>
<title> - THE GOVERNMENT PRINTING OFFICE AND EXECUTIVE BRANCH INFORMATION DISSEMINATION</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                   THE GOVERNMENT PRINTING OFFICE AND
                      EXECUTIVE BRANCH INFORMATION
                             DISSEMINATION
=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM
                             AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 1997

                               __________

                           Serial No. 105-53

                               __________

Printed for the use of the Committee on Government Reform and Oversight







                       U. S. GOVERNMENT PRINTING OFFICE
44-892                         WASHINGTON : 1997
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
PETE SESSIONS, Texas                 CAROLYN B. MALONEY, New York
THOMAS DAVIS, Virginia               PAUL E. KANJORSKI, Pennsylvania
JOE SCARBOROUGH, Florida             MAJOR R. OWENS, New York
MARSHALL ``MARK'' SANFORD, South     ROD R. BLAGOJEVICH, Illinois
    Carolina                         DANNY K. DAVIS, Illinois
JOHN E. SUNUNU, New Hampshire
ROB PORTMAN, Ohio

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
             J. Russell George, Staff Director and Counsel
                         Mark Uncapher, Counsel
                 John Hynes, Professional Staff Member
                          Andrea Miller, Clerk
           David McMillen, Minority Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 8, 1997......................................     1
Statement of:
    DiMario, Michael, Public Printer, Government Printing Office, 
      accompanied by Wayne Kelley, Superintendent of Documents, 
      Government Printing Office; and Bruce Holstein, 
      Comptroller, Government Printing Office....................     5
    Jones, Daniel S., president, Newsbank, Inc., on behalf of the 
      Information Industry Association; Robert L. Oakley, 
      Washington Affairs Representative, American Association of 
      Law Libraries; and Wendy Lechner, legislative director, 
      Printing Industries of America, Inc........................    93
Letters, statements, etc., submitted for the record by:
    DiMario, Michael, Public Printer, Government Printing Office:
        Memorandum for heads of executive departments and 
          agencies...............................................    47
        Prepared statement of....................................     8
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        May 5 and 31, memoranda..................................    70
        Prepared statement of....................................     3
    Jones, Daniel S., president, Newsbank, Inc., on behalf of the 
      Information Industry Association:
        Exchange of correspondence...............................   155
        Information concerning higher costs......................   194
        Information concerning IIA.............................152, 153
        Information concerning NTIS..............................   104
        Prepared statement of....................................    96
    Lechner, Wendy, legislative director, Printing Industries of 
      America, Inc., prepared statement of.......................   146
    Oakley, Robert L. Washington Affairs Representative, American 
      Association of Law Libraries, prepared statement of........   107


                   THE GOVERNMENT PRINTING OFFICE AND



                      EXECUTIVE BRANCH INFORMATION



                             DISSEMINATION

                              ----------                              


                         THURSDAY, MAY 8, 1997

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room 311, Cannon House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Maloney, Davis of Illinois, 
and Owens.
    Staff present: J. Russell George, staff director and 
counsel; Mark Uncapher, counsel; John Hynes, professional staff 
member; Andrea Miller, clerk; and David McMillen and Mark 
Stephenson, minority professional staff members.
    Mr. Horn. The Subcommittee on Government Management, 
Information, and Technology will come to order.
    We are here today to examine the operations of the 
Government Printing Office, and especially its efforts to 
disseminate Government information to the public. This is no 
small matter. Citizen access to Government information is 
critical to a free society.
    No one has put it better than James Madison did over two 
centuries ago: ``A popular government without popular 
information, or the means of acquiring it, is but a prologue to 
a farce or a tragedy, or perhaps both. Knowledge will forever 
govern ignorance, and a people who mean to be the Governors 
must arm themselves with the power knowledge gives.''
    The Subcommittee on Government Management, Information, and 
Technology is a principal congressional guardian of access to 
executive branch information. The subcommittee's charter states 
that it ``will ascertain the trend in the availability of 
government information and will scrutinize the information 
practices of the executive agencies and officials.''
    Today, we hope to hear from our expert witnesses on exactly 
this matter: How well is Federal information being 
disseminated? What improvements can be made? What is the proper 
role for the Government Printing Office and the Superintendent 
of Documents?
    Information dissemination programs at the Government 
Printing Office include the distribution of publications to 
Federal depository libraries nationwide, cataloging and 
indexing, and distribution to recipients designated by law. 
They also include distribution to foreign libraries designated 
by the Library of Congress, in return for which the Library 
receives governmental publications from those countries.
    The Government Printing Office distributes about 100 
million copies of government publications per year. 
Approximately 75 percent of all its printing needs are 
contracted out to private printers. Of the work handled in-
house, about half is for Congress. The Government Printing 
Office currently employs 3,674 employees, fewer than at any 
time in this century.
    There is concern that the administration has been reducing 
public access to information. Specifically, many executive 
branch agencies are not furnishing copies of the information 
they produce to the Government Printing Office for 
dissemination through the Federal depository libraries. 
Furthermore, there is concern that the administration is 
allowing many agencies to enter into restrictive distribution 
agreements that further limit the availability of agency 
information to the public.
    We have two panels today. The first will feature two 
witnesses from the Government Printing Office. Michael DiMario 
is the Public Printer. He has worked at the Government Printing 
Office since 1971, and he has, at one time or another, headed 
each of its major program areas. Mr. DiMario will be 
accompanied by Wayne Kelley, who is Superintendent of 
Documents. Mr. Kelley was a journalist and a publisher until he 
was named to his current post in 1991.
    The second panel will feature three witnesses. Daniel S. 
Jones is president of NewsBank, Inc. He is appearing on behalf 
of the Information Industry Association. Robert L. Oakley is 
governmental affairs representative of the American Association 
of Law Libraries. He is appearing on behalf of a coalition of 
library associations. Wendy Lechner is legislative director of 
Printing Industries of America.
    We welcome each of you, and we look forward to your 
testimony.
    [The prepared statement of Hon. Stephen Horn follows:]
    [GRAPHIC] [TIFF OMITTED] 44892.001
    
    [GRAPHIC] [TIFF OMITTED] 44892.002
    
    Mr. Horn. The tradition on the committee and all 
subcommittees of the Government Reform and Oversight Committee 
is to swear in all witnesses except Members of Congress. If you 
would stand and raise your right hands, we will swear in the 
witnesses.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note all three members have 
affirmed.
    We will begin with the Public Printer of the United States. 
A quorum is present, with Mr. Davis of Illinois.
    We welcome you. Did you have an opening statement, Mr. 
Davis?
    Mr. Davis of Illinois. No, sir.
    Mr. Horn. Then we will proceed with the first panel and the 
Public Printer of the United States, Michael DiMario. He is 
accompanied by Wayne Kelly, Superintendent of Documents, 
Government Printing Office; also, Bruce Holstein, the 
Comptroller of the Government Printing Office.
    Gentlemen, proceed as you would like.

   STATEMENT OF MICHAEL DiMARIO, PUBLIC PRINTER, GOVERNMENT 
PRINTING OFFICE, ACCOMPANIED BY WAYNE KELLEY, SUPERINTENDENT OF 
  DOCUMENTS, GOVERNMENT PRINTING OFFICE; AND BRUCE HOLSTEIN, 
            COMPTROLLER, GOVERNMENT PRINTING OFFICE

    Mr. DiMario. Mr. Chairman and members of the subcommittee, 
thank you for inviting me here this morning to discuss GPO's 
role in Federal information dissemination. As you indicated, 
Wayne Kelley, the Superintendent of Documents, who is seated to 
my left, is accompanying me, and also Bruce Holstein, GPO's 
Comptroller, who is seated to my right. In the interest of 
time, I will briefly summarize my prepared statement, which has 
been submitted for the record.
    Mr. Chairman, an abiding commitment to public access to 
Government information is deeply rooted in our system of 
Government. GPO is one of the most visible demonstrations of 
that commitment. For more than a century, our mission, by law, 
has been to fulfill the needs of the Federal Government for 
information products and to distribute those products to the 
public.
    Formerly, our mission was accomplished using traditional 
printing technologies. However, a generation ago, we began 
migrating our processes to electronic technologies, and in 
1993, Congress amended Title 44 with the GPO Electronic 
Information Access Enhancement Act, which requires us to 
disseminate Government information products on-line. This act 
is the basis of GPO Access, our Internet information service. 
Latest data shows that this service was used to download more 
than 4.5 million Government documents electronically last 
month.
    Today, GPO is dedicated to producing, procuring, and 
disseminating Government information products in a wide range 
of formats, both print and electronic. We provide printed and 
electronic information products and services to Congress and 
Federal agencies through in-plant processes and the purchase of 
information products from the private sector. In fact, as you 
have noted, we buy approximately 75 percent of all information 
products requisitioned from us, in one of the Federal 
Government's most successful procurement programs.
    We distribute upwards of 100 million copies of Government 
publications every year through a variety of programs, 
including a low-priced sales program, and to Federal depository 
libraries nationwide where the information may be used by the 
public free of charge.
    One of these items is the Citizens Guide on Using the 
Freedom of Information Act and the Privacy Act to request 
Government records, which is issued as a report by the 
Committee on Government Reform and Oversight. We have been 
distributing this item, in various editions, for many years, 
and it is very popular.
    We also disseminate a growing volume of information via the 
Internet. We catalog and index Government information products, 
and we distribute them on behalf of other Federal agencies. We 
conduct all of our services in a nonpartisan, service-oriented 
environment that emphasizes the primacy of the customer's 
requirements for timeliness, quality, security, and economy, 
and we are committed to achieving the greatest access and 
equity in information dissemination, whether through printed 
publications, CD-ROM, or on-line.
    At the bottom line, our programs reduce the need for 
duplicative production facilities throughout the Government, 
achieve significant taxpayer savings through a centralized 
procurement system, and enhance public access to government 
information.
    With the growing use of electronics, there is a temptation 
to say that the Government no longer needs a printing 
capability. I think this temptation should be resisted. Last 
year we produced over $700-million worth of printing services 
for the Government, and printing is still a major avenue of 
communication between the Government and the public.
    The transition to full electronics is coming, but it is a 
long way off. We need to manage that transition effectively. 
Maintaining a cost-effective printing and dissemination 
capability for the foreseeable future gives us an important 
management tool.
    A major problem confronting us today is the growing 
decentralization of Government printing activities. GPO is a 
primary guarantor not only of cost-effectiveness, but of public 
access to the comprehensive body of publications produced by 
the Government. When agencies do not use GPO for printing, the 
likelihood is that they will not only spend more, but their 
publications will not be put into GPO's dissemination programs 
where they can be accessed conveniently and equitably by the 
public.
    The growing decentralization of Government printing is a 
major source of so-called ``fugitive documents,'' documents 
that, by law, belong in our depository library program, but 
which are not included, usually because they are produced 
elsewhere than GPO.
    Decentralization is also expanding the opportunities for 
Federal agencies to use other dissemination mechanisms for 
their information products. With increasing frequency, these 
mechanisms are involving copyright or copyright-like 
arrangements that also have the effect of impeding public 
access to Government information.
    Two weeks ago, I testified on proposals for revising Title 
44 that would address these problems, including the issue of 
the constitutionality of GPO's operations that has been raised 
by the Justice Department's Office of Legal Counsel. For the 
record, I do not agree with that opinion. I think the issue of 
GPO's constitutionality can be addressed without sacrificing 
the current system of printing and distribution that serves the 
Government and the public well.
    Mr. Chairman, Government information is increasingly 
valuable to American citizens and taxpayers in the information 
age. At GPO we provide a service which makes that information 
available to the public cost-effectively, comprehensively, and 
equitably.
    GPO's continuing migration to electronic technologies, as 
well as the ability of our staff, are already facilitating the 
re-engineering of information products and processes to satisfy 
the changing information requirements of the Government and the 
public. At the same time, our traditional printing and 
distribution capabilities are preserving and protecting access 
to government information for all of our citizens.
    More than a century ago, Congress, in its wisdom, designed 
a system in GPO for keeping America informed. That system 
continues to serve a vital purpose today, and we look forward 
to working under congressional oversight and guidance to 
improve the performance of our operations and programs.
    Mr. Chairman and members of the subcommittee, I thank you 
for taking an interest in GPO and for inviting me to be here 
this morning. I would be pleased to answer any questions you 
may have.
    [The prepared statement of Mr. DiMario follows:]
    [GRAPHIC] [TIFF OMITTED] 44892.003
    
    [GRAPHIC] [TIFF OMITTED] 44892.004
    
    [GRAPHIC] [TIFF OMITTED] 44892.005
    
    [GRAPHIC] [TIFF OMITTED] 44892.006
    
    [GRAPHIC] [TIFF OMITTED] 44892.007
    
    [GRAPHIC] [TIFF OMITTED] 44892.008
    
    [GRAPHIC] [TIFF OMITTED] 44892.009
    
    [GRAPHIC] [TIFF OMITTED] 44892.010
    
    [GRAPHIC] [TIFF OMITTED] 44892.011
    
    [GRAPHIC] [TIFF OMITTED] 44892.012
    
    [GRAPHIC] [TIFF OMITTED] 44892.013
    
    [GRAPHIC] [TIFF OMITTED] 44892.014
    
    [GRAPHIC] [TIFF OMITTED] 44892.015
    
    [GRAPHIC] [TIFF OMITTED] 44892.016
    
    [GRAPHIC] [TIFF OMITTED] 44892.017
    
    [GRAPHIC] [TIFF OMITTED] 44892.018
    
    [GRAPHIC] [TIFF OMITTED] 44892.019
    
    [GRAPHIC] [TIFF OMITTED] 44892.020
    
    [GRAPHIC] [TIFF OMITTED] 44892.021
    
    [GRAPHIC] [TIFF OMITTED] 44892.022
    
    [GRAPHIC] [TIFF OMITTED] 44892.023
    
    [GRAPHIC] [TIFF OMITTED] 44892.024
    
    [GRAPHIC] [TIFF OMITTED] 44892.025
    
    [GRAPHIC] [TIFF OMITTED] 44892.026
    
    [GRAPHIC] [TIFF OMITTED] 44892.027
    
    Mr. Horn. We thank you.
    Does the Superintendent of Documents wish to comment on his 
operations?
    Mr. Kelley. I would just add to what Mr. DiMario has said 
that we welcome the interest of the committee, Mr. Chairman. We 
feel that Federal information policy is at a crossroads, that 
information is disappearing rapidly from the public domain, and 
we appreciate the interest of this committee in that topic.
    Mr. Horn. I wonder if you could elaborate on that, because 
you have hit a very important issue, probably the most 
important we will discuss. Give me some examples of how you 
would back up that statement.
    Mr. Kelley. Well, there are three or four ways that 
Government information is now disappearing from the public 
domain, Mr. Chairman. One is copyright or copyright-like 
restrictions. An example of that would be the Journal of the 
National Cancer Institute. For 50 years, that journal, a 
leading source of information to the public on cancer research, 
was available through depository libraries or through sale by 
the Government Printing Office.
    On January 1 of this year, the National Cancer Institute 
privatized that journal. They did so under authorization that 
they said came from a cooperative research and development 
agreement. They have signed over copyright of the journal to 
the Oxford University Press. The American public may now only 
get information on American cancer research, previously 
supplied by this journal, by purchasing the information. This 
is an example of copyright restrictions.
    A copyright-like restriction would be a publication, Big 
Emerging Markets, which is published by the Commerce 
Department, produced entirely by Commerce Department employees. 
They made an agreement--the International Trade Administration 
is the publisher--made an agreement with the National Technical 
Information Service. This agreement permitted a commercial 
publisher, Bernan Press of Lanham, MD, to publish this 
Government document, exclusively. So it was available only 
through NTIS' partner and NTIS itself.
    There are other restrictions when Government agencies 
decide to sell information and they do not make it available 
except under their terms and conditions. This is happening more 
and more frequently. An example of this is NTIS and a new CD-
ROM product called Order Now. For many years, this valuable 
resource, which had all of the bibliographical references to 
scientific and technical information published by the 
Government, was printed by the Government Printing Office.
    The National Technical Information Service recently decided 
to make a CD-ROM of this. This CD-ROM is available only by 
purchase from NTIS and is not made available to the depository 
libraries.
    There are numerous other examples, but this will give you 
an idea.
    Mr. Horn. Before this trend occurred, when information was 
published by the Government Printing Office and was distributed 
to depositories, I assume some of that information was 
occasionally compiled and issued by commercial presses. They 
didn't have to worry about a copyright, because that 
information was freely available, and depositories didn't have 
to worry about buying the information, because they were 
automatically put in those depositories by the Government 
Printing Office.
    Now, how has that changed? Do we have actual data as to how 
many situations like the ones you described have occurred, and 
is that really restricting information, in the sense that 
there's a price to pay for information, most of which is done 
and created with the taxpayers' money?
    Nothing would stop--and I don't think we would want to 
discourage--commercial publishers from taking Government works 
and putting them in book form, editing and putting subheads, 
whatever they want to do, putting better indexing, if they 
think that's possible.
    But the question is, to what degree, if we don't have the 
Government Printing Office depositories furnished in the way 
they have been furnished in, you could say that is a 
restriction of information, and do we have any numbers on what 
is happening here, kept track of them all, on the 
privatization?
    Mr. Kelley. We have only a trend, Mr. Chairman. I can't 
quote you exact numbers. But in our sales program and in the 
depository program, we are seeing a very pronounced trend. Any 
information that has commercial value is now very likely to be 
sold exclusively and removed from our program.
    The U.S. Industrial Outlook, prepared for decades by the 
Department of Commerce, is now going to be done on an exclusive 
arrangement with McGraw-Hill, using Federal employees. As I 
said, the cancer journal and others.
    Mr. DiMario may add something to that.
    Mr. DiMario. We have a list of several publications that 
have given us concern. The ones mentioned by Mr. Kelley, 
certainly, and then the Export Administration Regulations; CIA 
World Fact Book; the NOAA Diving Manual; Hispanic Latinos, 
Diverse People in a Multicultural Society, a booklet by the 
Department of Commerce; A Nation of Opportunity, Kickstart 
Initiative, another from the U.S. Advisory Commission on 
National Information Infrastructure.
    We have Population of States and Counties of the United 
States, a Bureau of the Census publication, 1790 to 1990; 
Historical Statistics of the United States, Colonial Times to 
1970, in CD-ROM format; Toxic Substances Act, Chemical 
Substance Inventory; and there are several others I can read to 
you that are included here.
    It is these kinds of publications that bother us. Now, 
concerning your reference to the value-added producers in the 
private sector, I think the beauty of the existing Title 44 is 
that it has contained in it the essence of supporting the 
private sector's use of public information.
    We are a publisher, in the first instance, of the 
information as it came from the Government. But the private 
sector, in putting value to it, enhances that, and for those 
people who want to go beyond the basic information given to the 
Government, we encourage that. It is a wider dissemination of 
Government information disseminated to the public, and the 
better the Nation is informed. So we totally support the 
private sector.
    What we oppose is the exclusive arrangement that then 
starts to deny people access to the basic information except to 
pay a price that they may not be able to afford. The existing 
structure allows everyone to get free access. It does not allow 
them to get their own publication.
    Mr. Horn. Now, how much of your material--and then I will 
yield to Mr. Davis--is on the Internet?
    Mr. DiMario. We currently have 70-plus data bases that we 
have put up on-line on the Internet. Those include the 
Congressional Record and the Federal Register, which the GPO 
Access law required us to put up, but it also includes the U.S. 
Code. It includes many, many other publications.
    We are putting additional publications up. We are trying to 
enhance that information to make as much of the demand 
publications available to the public as possible. Now, there is 
a limitation on the number of resources we can commit at any 
given time.
    We are trying right now to do the Code of Federal 
Regulations with the Office of Federal Register and the 
Archivist of the United States, Mr. Carlin. That's a very 
important project to them. And the Code of Federal Regulations 
is probably the most in-demand publication that we make 
available, because this is how the public interacts with its 
Government, they know the rules and regulations that are out 
there.
    All agencies have to be involved in that process, so it's a 
difficult process, but we are undertaking it and we are moving 
along quite rapidly. This is not to preclude commercial folks 
from purchasing from us the information, at cost, essentially, 
and going and putting a value-added product up that enhances 
what we are doing.
    Mr. Horn. Mr. Davis, the gentleman from Illinois.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    Mr. DiMario, good morning. How are you doing?
    Mr. DiMario. Yes. Good morning.
    Mr. Davis of Illinois. You address, I guess, one of the 
main thoughts that I had, and that is, as we continue to 
increase our telecommunications technology and there is a 
greater reliance on the use of it, can we measure the extent to 
which it has impacted the need for our printing office?
    Mr. DiMario. Well, to some degree, we can measure that. The 
printed product is declining, to some degree, in demand with 
respect to traditional products that we have been putting up 
on-line. That is, as we put up an electronic product, there are 
some people who would prefer the electronic product. But there 
are still people who want the paper product, and there are some 
who want both. So we see both of those things happening.
    If we examine our subscriber lists for paper products, 
often we see that they are getting the electronic products. 
What is happening, though, is, as products are being put up 
electronically, in some instances, they are replacing the paper 
product. And when that happens, they are not fully available to 
everyone in the public. The public has a difficult time finding 
these.
    There is a Government information locator system that is 
supposed to be being developed throughout Government. We have 
our own GILS structure, and we reference it in the official 
statement that we submitted, the prepared statement. That GILS 
structure allows people to identify publications that we are 
aware of.
    We have attempted to make the structure in such a way that 
people can point to other agencies and obtain the information 
on the other agencies' lists. But not all information is coming 
through us, and the public has to go hunting across many, many 
sources to identify information, as it stands right now. We 
think they need one place where they can locate that 
information.
    Mr. Davis of Illinois. Do you get the impression that we 
are seeking more information? It seems to me that I'm getting 
more paper, and I'm also getting more telecommunication 
inquiries. Are we getting more of a requirement?
    Mr. DiMario. I really can't say, but my experience is 
somewhat like yours. What is happening is, a lot of paper is 
being outputted at the point at which you receive it 
electronically. As a consequence, you may be receiving more 
paper. I have not looked into that.
    From the standpoint of what we produce, we are producing 
fewer paper products, but it's still a very, very significant 
number, as I pointed out that over $700-million worth of paper 
is still coming through us. The electronic portion is still a 
small number. Even when I talk about putting 70 data bases up 
electronically and doing various things, it is still a small 
number relative to what we are doing in paper.
    Mr. Kelley. I might add, Mr. Davis, that it's interesting 
that the Library of Congress paper collections continue to 
increase, even in this electronic age. So it's not disappearing 
in print.
    Mr. Davis of Illinois. It's an interesting point.
    You mentioned that decentralization would likely increase 
the cost. Would you talk about that a little bit?
    Mr. DiMario. Sure. From our perspective, when you 
decentralize the procurement of printing and the production of 
printed products, each point at which that product is generated 
has to put in place some mechanism that allows them to acquire 
that product.
    Printing is very different than just going out and buying, 
say, pencils that are available in the marketplace. Printing is 
essentially created for a particular use at a particular time. 
So you have the administrative cost that now gets 
decentralized.
    We have some 6,000 billing addresses in Government, as an 
example, people who are ordering publications from us. If you 
have a decentralized structure where these 6,000 billing 
centers now become independent structures buying their own 
printing, you are going to build up significant administrative 
costs.
    You are also going to create costs for the printer, who now 
has to look at that market and potentially have salespeople to 
call on all of these various areas of Government in order to 
come in and get business.
    Right now, we are a centralized source. We get information 
from the various agencies. They place orders with us. We place 
them against contracts that we use our own internal expertise 
to create. We know that every printed product has some 
variation to it, but we can create contracts that are sort of 
general usage kinds of contracts, and we can have large numbers 
of contractors around the country bid on these contracts.
    We have some 13,000 contractors on our bidding list, around 
the country. As a result, we get very, very low prices. There 
are people all over the country who bid on the work. We have 
quality measurements for the quality of the work. We have a 
sense of what that work ought to cost.
    And the issue is always the bottom line cost: Can that 
contractor, at any location, provide the product to the 
customer agency in a timely manner, at the quality level that 
the customer wants, at the lowest cost, including 
transportation costs?
    If the contractor meets the requirements and comes in with 
the low bid under those circumstances, we don't care if they 
are in California and the need is in New York, as long as it's 
there in a timely fashion. Well, that gives us a very, very low 
price. But when you simply are going to your local provider, at 
any of these 6,000 locations, you walk down to your 
neighborhood quick printer, you are not assured that you are 
getting the very best price for your money.
    We have examples of that. We have an example of one 
publication that could have been produced through one of our 
programs for one-tenth of the cost that it was produced through 
a local private sector provider, where an executive agency went 
to purchase the publication.
    I think they paid $30,000 for it; it could have been 
procured, with their specifications, in our office for one-
tenth of that amount. And additionally, had they come in and 
talked to us about modifications in the specifications that 
still would have met their requirements, we think we could have 
purchased that product for around $500, as opposed to $30,000.
    Mr. Davis of Illinois. One other question, if I could, Mr. 
Chairman?
    Mr. Horn. Sure.
    Mr. Davis of Illinois. Do you feel that, through this 
system, small businesses get an adequate opportunity to 
participate?
    Mr. DiMario. We think so, because, No. 1, the printing 
community is predominantly a small business community. One of 
our main suppliers, by the way, is an 8(a) firm in California, 
and they are a marvelous supplier. They have done a great job 
for us, and they regularly bid on the work, and they are 
considered a small business. So small businesses are out there.
    In fact, printing is predominantly small business. 
Certainly, there are firms like Donnelly, that is just very, 
very large, but many of these companies that, in this industry, 
would be considered very large, may, under the existing Small 
Business Act, be considered a small business.
    In our structure, we actively go out and attempt to get 
small businesses to participate in the program, and they do. 
The Printing Industries of America has just got untold numbers 
of people who are small businesses and actively participate.
    Mr. Davis of Illinois. Thank you very much. You've been 
very helpful.
    Mr. DiMario. Yes, sir.
    Mr. Davis of Illinois. I have no further questions.
    Mr. Horn. We are delighted to welcome another member of our 
full committee, and that's Major Owens.
    I think you are the only professional librarian in the 
Congress. Are there some questions you would like to ask?
    Mr. Owens. Not at this time.
    Mr. Horn. Well, let me proceed down some questions. And 
whenever my colleagues have a question, just let me know, and 
we will get them all out on the record.
    In your testimony, you noted that the Government Printing 
Office has gone from 8,200 employees, about 20 years ago, to 
3,700 employees today. Have you had to lay off employees in 
order to accomplish those reductions?
    Mr. DiMario. By and large, the answer is no. We have 
accomplished this through attrition and planned attrition. 
Knowing that technology was changing, we worked through a very 
long-term planning process and reduced the size of the office.
    The only place where we have had to RIF was in the closure 
of some of our field operations. In fact, in the downsizing of 
those regional plants, there were, as against this entire 
number, eight individuals that were actually RIFed. There were 
32 people who were affected by the downsizing, but we were able 
to help place the other employees effectively with other 
agencies.
    Mr. Horn. What technological change had the most to do with 
the reductions?
    Mr. DiMario. I would say the move from hot metal to the 
existing structure that we have. When we went from hot metal 
composition, just the nature of the process allowed us to 
reduce very, very substantially. As noted in the testimony, 
we've been into electronic photocomposition since really the 
mid-1970's. I think we started in the late 1960's. But in the 
mid-1970's, that transition allowed us to just change the 
numbers of people that were necessary to produce products.
    Mr. Horn. You mentioned, and you expanded a little on that, 
that about 75 percent of your printing is outsourced to private 
contractors. How do you decide what work should be performed 
in-house and what work should be performed by private 
contractors?
    Mr. DiMario. The work that is performed in-house, to a 
large degree, is work that requires very quick turnaround, 
security issues, maybe sensitive material, or requires a very 
quick, close relationship with the customer agency.
    Let's take congressional printing. We do the Record and 
Register and the bills internally. We have to work with each 
committee of Congress. We have to work with the leadership in 
order to get those products done and turned around so they can 
be on your desks early in the morning.
    With respect to other congressional products, we are 
certainly looking at the degree to which we can contract out 
some of that material, but by and large, it is dependent on the 
needs of Congress. We will have staffing in the office to meet 
these peaks and valleys in congressional demand, and so we have 
to retain some products to meet those peaks and valleys.
    We look at executive branch publications from the 
standpoint of how well they fit on equipment that we have and 
is necessary. For example, the Record presses that we have to 
produce the Congressional Record we also use for the Federal 
Register. They are identical products in many ways. They use 
newsprint. But they all need this timely daily delivery, and so 
we have a work force that's able to handle those. So that's one 
of the ways we make that decision.
    We also retain in-house the U.S. budget at the request of 
the White House. There's a great deal of security involved in 
that, and we work very, very closely with the Director of OMB 
and their staff on the production of that. We do passports in-
house. We do postal cards in-house. And other products, as our 
capacity allows, we will negotiate with the agencies to keep 
products in-house.
    But it's largely timeliness of delivery, security of the 
product, the sensitivity of the product, things that we need to 
embargo. As an example, the budget itself, we have it in; we 
work with OMB. And we embargo it before it's released, and they 
tell us when to release it.
    Mr. Horn. And that's a very detailed job. I don't think 
there has ever been a leak, has there?
    Mr. DiMario. I hope not.
    Mr. Horn. I'm not aware of any.
    Mr. DiMario. I'm not aware of any.
    Mr. Horn. Has this percentage of work--essentially three-
to-one, if you will--has that been changing in recent years, 
and in which direction is it changing?
    Mr. DiMario. Yes, sir. It changes on a yearly basis, to 
some degree, but it's a fairly constant number, although it has 
been going up, as a percentage. When I came to GPO, in 1971, I 
would say the percentage was roughly 62 percent, 63 percent of 
the total work. We are now at 75 percent to 80 percent. I think 
that shows the variation.
    But it's an effort on our part to put as much into the 
private sector as we can, with the need to retain an in-house 
work force. What we have done during my term, we have closed a 
number of field facilities. So the only remaining field 
printing facility that we have, and it's quite small, is our 
Denver field printing plant.
    Other than that, we procure printing, and we have field 
procurement operations. Even in this town, we had a facility at 
the Navy Yard that is closed; it has been merged into our 
central office plant. And the central office plant has been 
reduced dramatically.
    Mr. Horn. Later today, we're going to have a witness from 
the Printing Industries of America, and the recommendation from 
them is that the Government Printing Office should contract out 
far more of its printing to private sources. Do you have any 
comments on that?
    Mr. DiMario. Well, I think they look at the dollar value of 
the printing that is in the plant. And they, obviously, would 
like it all contracted out. I think that's a given. If you're 
out there, you see it as a source of revenue in your industry.
    My sense is that we have worked very diligently to put a 
maximum amount of work into the private sector, but we still 
have to take into account the needs of Government. We need a 
central facility to produce some products in a timely fashion, 
in order to support your work and the work of your staffs.
    Let's look at the budget process. We work very, very 
closely with the budget committees during the appropriations 
process. Frequently, those staffs are dependent on going back 
and forth with our office on all of those appropriations bills. 
We have to move those through in that appropriations cycle, 
every bill that comes through, working with those various 
staffs, and that is critical to how Congress operates.
    We work with the Office of Legislative Counsel, the Senate 
Office of Legislative Counsel and the House Office of 
Legislative Counsel, in the bill drafting process. That's all 
part of our in-house production.
    So it's not just the output that we're talking about, it's 
not just the printed product at the end, it's the totality of 
how information is created and used. That interface is a 
constant. I don't know how you separate the two out 
effectively.
    Mr. Horn. Let me ask you about the Congressional Record. 
Now, a lot of the depository libraries have not had the 
permanent bound volumes of the Congressional Record for a 
number of years. What is the situation on that?
    Mr. DiMario. Well, that's one that I think it's partly our 
fault. We have to move the bound Record out. And we do the 
bound Record when we have work space available for our people 
to work on it. But the bound Record is also dependent on 
getting the final data from the Congress. And when the Record 
is produced on a daily basis, it's subject to some 
modification. The Congress, as you know, may provide some 
changes to us at a subsequent time, so that is difficult to get 
out.
    Moreover, we have, in the appropriations process, a 
situation where there has been an effort to limit the 
distribution of the bound Record in the paper format, and a 
movement toward trying to get us to do it as a CD-ROM product. 
That has not been well received in the library community. The 
view of researchers is that the permanent bound Record is a 
very, very important document, and they would like to see the 
paper volume continue.
    So what we've done is, we've had a committee that deals 
with the bound Record, and we deal also with the serial set--
I'm certain you are familiar with the serial set, which is all 
the congressional numbered documents--whether or not those two 
publications should be continued in some way as paper products.
    But the timeliness of delivery, which is part of your 
issue, is tied into that whole structure.
    Mr. Horn. I think, basically, we need both. I mean, if the 
CD-ROM permits indexing and searching by word or key phrase, 
that's very helpful. Because one of the frustrations with the 
current microfiche, I believe, that as it goes out to the 
depositories, it's just about impossible to do research and 
find the material you want in a timely way.
    As we all know, there's a difference between the pagination 
of the daily Record versus the bound permanent Record. Unless 
we can solve that problem, we have a real difficulty to track 
sources and footnotes in scholarly works on Congress, at least 
that quote the Congressional Record.
    So I guess I'm saying, what's slowing you up, and what's 
stopping you from making up those permanent records that are 
bound and can be in libraries, that will hopefully be there for 
a few hundred years, at the least? I realize there are other 
ways of technology, and all that, but, on some of it, you just 
need to look at what was said, and you need to get the right 
page numbers when you are doing research.
    Mr. DiMario. Well, correct, and I support that view. We 
need to do a permanent bound Record that is truly available to 
the research community. I think the issue needs to be addressed 
in the Appropriations Committee, though. That issue has been 
raised on a regular basis for as long as I can recall, in that 
committee, and it needs to be worked out between the various 
committees of jurisdiction.
    Mr. Horn. Well, are they shorting you on money for that?
    Mr. DiMario. Well, they would like us to migrate away from 
the paper products. And one of the reasons we moved to the 
microfiche, initially, was to save money. So the question, are 
they shorting us on money, I think that yes, they are. But it 
is more by way of policy. They do not want us to produce these 
paper products. They do not see the value of them as readily as 
some others see them.
    Congress is not deriving a direct benefit, necessarily, 
from the number of paper products that are produced, the bound 
records that are produced. But the depository community, the 
research libraries are the ones who derive the benefit, and the 
entire Nation does. They are, through the availability in 
research libraries, serving the entire Nation, commercial users 
as well as research institutions.
    Mr. Horn. Well, is the Appropriations Committee telling you 
not to print the Presidential papers in hard copy, with hard 
covers?
    Mr. DiMario. Well, they have not made that an issue, 
because we're talking about the legislative branch 
appropriation, and they are concerned about the size of the 
legislative branch appropriation. I cannot speak to 
appropriations with respect to the executive branch, but we've 
not heard that as an issue.
    Mr. Horn. Well, we pay the bills in either case, and I'm 
rather shocked my colleagues don't see equality in how we 
maintain congressional legislative branch records and permit 
the executive branch printing to go on as it is. I think both 
should be treated the same way. Your Presidential papers series 
is invaluable for scholars, as they use those records. And I 
would just think we should be updating the binding on the 
permanent Congressional Record.
    It is very frustrating, as a professor, which was my life 
before I was elected to Congress, to have your class try to 
track down information on Congress. As I say, the microfiche 
thing is nonsense. The index is horrible. And it's just about 
impossible to do work in a reasonably rapid way. And I would 
think we need that permanent Record out.
    Mr. DiMario. Yes, sir.
    Mr. Horn. And I will talk to my friends in the Legislative 
Appropriations Subcommittee, because that's just being--that's 
one of those silly economies that don't get us anywhere, 
frankly, and they are on the wrong track.
    Major, do you have a few questions you would like to ask? 
I've got a long list here to get in the record, but help 
yourself.
    Mr. Owens. The depository libraries, you distribute 
information to some in electronic formats. What percentage of 
the information distributed--well, do we have all the 
information that is in electronic format distributed to 
depository libraries also in print?
    Mr. DiMario. Mr. Kelley may respond to that. Generally 
speaking, if the product is in print, it, up to this point, has 
been distributed in print. But under the direction of the 
Appropriations Committee, we established a task force, a couple 
of years ago, to look at transitioning the entire depository 
library system to a fully electronic system. And that task 
force had a great deal of participation. Mr. Kelley chaired it 
for us.
    It involved a number of committees, including 
Representatives from this committee, who participated on that, 
and the library community. The result was, the recommendations 
were to slow the transition down somewhat from what the 
Appropriations Committee wanted, and to look at certain 
documents as core documents that must be maintained in paper, 
and that are fundamental to our democracy, our Government.
    Mr. Kelley may want to add to that comment.
    Mr. Kelley. Mr. Owens, the number of tangible products, 
that is, CD-ROMs and discs, and so forth, is still a small 
percentage, perhaps 5 percent of the holdings in depository 
libraries.
    The on-line versions through GPO Access include, as Mr. 
DiMario said earlier, some 70 data bases. The Federal Register, 
the Congressional Record, Commerce Business Daily are the big 
ones, and we're now getting--in April, we had 4.5 million 
downloads, in that month, of those documents. So it's getting 
to be a large number of accesses by the public and depository 
libraries, on-line.
    The Appropriations Committee has urged us to make a 
transition to electronic documents. We have begun that 
transition, and by the end of 1998 fiscal year, we may have 
available as much as 50 percent of all the depository holdings 
on-line or electronically.
    Mr. Owens. My question is, what percentage of significant 
documents do you have which are only in electronic format now 
and not available in print?
    Mr. Kelley. Very few, but the pressure, as I say, is to 
transition and then drop the print.
    Mr. Owens. The pressure is to transition.
    Mr. Kelley. To electronic.
    Mr. Owens. But, at this point, only a few are not available 
in print as well as electronic format?
    Mr. Kelley. Only a few. We have been urged to do the bound 
Congressional Record in CD-ROMs and to limit the number of 
libraries who will get the bound Record. We have been urged to 
do the same with the bound serial set.
    Mr. Owens. So, at this point, you would say that the 
depository libraries are not experiencing any hardships with 
respect to the distribution of Government documents, situations 
where they don't have the capacity to utilize the electronic 
formats, but they don't get them in any other form, so they end 
up without having the information in any form.
    Mr. Kelley. The impact, at the moment, is minimal. But we 
are looking for it to increase. For instance, with Census 2000, 
the Census Bureau is telling us that they will not make 
available any paper and that you will have to get census 
reports electronically. And under consideration right now is a 
process under which they will only sell them electronically. We 
are working with the Census Bureau to try to get some exemption 
that would allow electronic access by depositories.
    But we can see, in the next 2 or 3 years, there will be a 
significant impact.
    Mr. Owens. I assume that only Congress can redirect the 
Census Bureau to drop that. They have declared they will not 
produce it in any other format? At this point, it's going to 
happen unless Congress were to turn that around?
    Mr. Kelley. That's correct, sir.
    Mr. Owens. What about fugitive documents, very significant 
documents that are produced by agencies that don't come through 
the Government Printing Office. Would you have an estimate of 
how many of those are presently only in electronic format?
    Mr. Kelley. There are just now beginning to be a number of 
very significant ones. The Order Now CD-ROM from NTIS is an 
example. NTIS has taken the position that electronic documents 
don't need to be included in the depository program. If that's 
the case, and the administration generally takes that view, 
then we will really have a problem as we move into the 
electronic future.
    There are some other data bases. The Export Administration 
Regulations are now on an on-line data base updated daily. We 
still have the print product, but only because NTIS, under 
pressure, agreed to keep the print product in. But the more 
useful on-line Export Administration Regulations is not 
available, only for sale.
    Mr. Owens. Mr. DiMario.
    Mr. DiMario. Well, I think the significant thing that Mr. 
Kelley mentioned is this trend within Government agencies, and 
NTIS being an example of it, where they are looking at a 
publication that was previously a print publication and saying, 
well, this is an electronic product now, and therefore it's not 
covered by any of these rules.
    We don't read the provisions of the depository law in that 
way. It includes Government publications. Government 
publications are defined as informational matter created as 
individual documents at Government expense. It's a very broad 
definition.
    Mr. Owens. You are saying they are still required to handle 
an electronic information product in the same way they would 
handle a publication in print?
    Mr. DiMario. We believe so. We believe that the broad 
structure of the depository law requires that electronic 
products that are created in Government agencies, that are 
intended as individual documents, are still required to be 
distributed through the Superintendent of Documents to the 
depository libraries.
    Now, a number of agencies are just not adhering to that 
law. To some degree, they look to the Paperwork Reduction Act 
definition of publications that has been put in there, which is 
less broad.
    OMB, to a large degree, the Office of Information and 
Regulatory Affairs, OIRA, has interpreted the definition that 
they have in the Paperwork Reduction Act to say that it needs 
to be a publication that was produced, in the first instance, 
intended for distribution to the public. Well, most documents 
are not produced, in the first instance, with the intention of 
distribution to the public. They are produced for some need of 
an agency.
    So that interpretation of conflicting laws--I don't even 
believe that they are conflicting--but if you take their 
definition, you have to look to see whether or not the 
publication was produced for distribution to the public. As a 
general rule, it allows agencies to say, ``Well, this has not 
been produced that way. Moreover, it's an electronic product. 
We don't read that as being under the Chapter 19 provisions of 
Title 44, and therefore, we're not going to include it in the 
program.''
    And they do not give us the publication. So more fugitive 
documents, in fact, are being created each day.
    Mr. Owens. Would you say we need legislation to clarify 
Government policy on two major issues, and that is, this 
definition issue, as you have just outlined, exactly what is 
appropriate under this law to be included in the system; and 
also we need some legislation to deal with the capacity of the 
depository libraries to utilize information in electronic 
format?
    If they don't have the capacity, then the law is really not 
being carried out. We need to do something to make certain that 
depository libraries have the capacity to utilize the 
information.
    Mr. DiMario. I would certainly think that statutory 
modifications that would clarify everything would be useful. 
Whether it's necessary or not, I don't know. I think you can 
read the laws in a compatible way. I think what is happening is 
that there are people who are charged with administering the 
laws who are not reading them in a compatible way.
    Mr. Owens. But fugitive documents are increasing. The 
number is escalating rapidly.
    Mr. DiMario. They are increasing.
    Mr. Owens. So, obviously, you need something.
    Mr. DiMario. Some affirmative action by Congress or within 
the administration, recognizing the Title 44 provisions in 
Chapter 19, and the definition of that law as being critical to 
the information dissemination to the public, certainly needs to 
be made.
    To take the Paperwork Reduction Act definition, which was 
intended for a totally different purpose, and to say this 
allows us not to put publications out through the depository 
program, I think is a distortion of intention.
    Mr. Owens. Thank you.
    Mr. Horn. I think the gentleman is absolutely correct. I 
think the gentleman from New York is correct. I can assure you 
we are going to review this and try to get the administration 
to follow the intent of both laws, which, to me, is quite 
clear.
    We do not want to deny information to the American public. 
What we want them to do in their paperwork reduction is the 
kind of bureaucratic nonsense that comes out of every agency 
sometime during the year, and reduce that, which is a burden in 
the regulatory sense, but not in the information sense. And 
that's just common sense.
    I am going to declare a recess for 15 minutes. We have a 
vote on the floor we have to respond to. So, gentlemen, relax 
for 15 minutes.
    [Recess.]
    Mr. Horn. Let us continue with the questioning.
    Has the GPO ever approached the Office of Management and 
Budget's Office of Regulatory and Information Affairs about 
negotiating a Memorandum of Understanding to cover the 
executive branch's printing and information relationship with 
the Government Printing Office?
    Mr. DiMario. We have participated in an attempt at 
negotiating that. It was not our directly approaching OMB or 
OIRA. It was done, actually, through the House of Congress a 
couple of years ago, or a committee of the House of Congress, 
and that committee of the House was, I think, Post Office, 
Treasury, and General Government Subcommittee of the 
Appropriations Committee.
    They brought us together, and we talked about having some 
policy that would be put in place until the differences could 
be worked out legislatively between the executive branch and 
the committee.
    The result of that was the so-called ``Rivlin memoranda'' 
that we have made some mention of. Alice Rivlin first, and then 
Mr. Panetta, issued memoranda that asked the agencies of 
Government to continue to do work through GPO.
    And there were certain exceptions that were spelled out in 
the memoranda where agencies could continue to do a certain 
amount of their work in existing plants, but could not expand 
capacity, had to continue their downsizing efforts for their 
internal operations, and at the same time give preference to 
procured products, and that the procurement be through the 
Government Printing Office.
    So that policy statement was issued in conjunction with 
this committee negotiation with OMB. And I personally 
participated in that and also in the drafting of the memoranda. 
The memoranda were issued by Ms. Rivlin, then Mr. Panetta, and 
then the Acting Director, Jacob Lew, at OMB.
    Mr. Raines has been asked, not directly by GPO, but I 
believe by the Joint Committee on Printing members, a number of 
whom or all of whom have signed a letter to Mr. Raines asking 
that he reissue the policy of this negotiated agreement until 
some legislative solution can be worked out.
    What has happened is, that memorandum that came out had a 
1-year timeframe to it. It was first issued in September 1994, 
then in April 1996, but there was this sense in OMB that, in 
April 1997, the memorandum expired, because it made reference 
to a 1-year timeframe.
    And in advance of that 1-year timeframe, we saw evidence in 
OMB that they were looking, together with a couple of agencies, 
to migrate away from GPO and to set up their own centralized 
printing activity. In fact, they issued a publication to a 
number of Government agencies and held a meeting that discussed 
a restructuring of government printing in the executive branch, 
and that would have been to essentially ignore the current law 
and to push GPO outside that.
    Mr. Horn. Is there anything in that memorandum that Rivlin, 
Panetta, and the Acting Director signed off on, to which you, 
as Public Printer, object?
    Mr. DiMario. No, sir. I have no objection.
    Mr. Horn. So you have no problem with that memorandum being 
continued as a guidance to the executive branch?
    Mr. DiMario. I would support it completely. And I think 
that we, at that point, both in the executive and in the 
legislative branch, could work toward a common solution that 
was agreeable to everyone.
    Mr. Horn. Are you aware of any rival printing operation 
that is now being established in the executive branch, and if 
so, where is it, and does Congress know about it?
    Mr. DiMario. Well, we have some evidence regarding the 
Defense Department, the Defense Automated Printing Service, 
specifically.
    Mr. Horn. Well, they have been excluding themselves for 
years, haven't they?
    Mr. DiMario. Yes, sir.
    Mr. Horn. This is not new.
    Mr. DiMario. No. But they have been acting with the General 
Services Administration printing operations and have been 
looking at merging the two activities. And the Defense 
Automated Printing Service has actually been reaching out for 
customers outside of the Defense Department, in an expansive 
role, to provide printing services and contracting services for 
them.
    We also see the same thing happening in NTIS, the National 
Technical Information Service, in Commerce, where they are 
reaching out for customers. They assert that they have their 
own independent authority to act and that they are not bound by 
the printing laws.
    So, yes, sir, we do see this.
    Mr. Horn. Has your counsel looked at that document, and 
what is the reaction of the Public Printer to that document?
    Mr. DiMario. Well, we believe that they do not have this 
independent authority, and we believe that they are simply 
looking at ways of avoiding the generic law that is in Title 
44. And we saw exactly that in some activity by GSA, where they 
asserted they had independent authority. They looked at some 
obscure provision of law.
    The Justice Department came back and said that the 
authority that they were relying on was not sufficient, not 
adequate, I believe. Our counsel, in looking at these, has 
clearly said they are not consistent with the Title 44 
provisions.
    Mr. Horn. OK. At this point, I want in the record an 
exhibit of the memorandum signed off by two budget Directors 
and one Acting Director, and the relevant citation that you 
have from Defense, and any other exhibits.
    Do we know what their costs are? Do we know what their 
overhead is? We will ask our staff to ask the two agencies you 
named for how many printing jobs have they handled outside of 
their own. What are their charges? How much overhead are they 
levying, et cetera?
    Mr. DiMario. We will submit all of those to you.
    Mr. Horn. Very good. Without objection, they will be put in 
the record at this point.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44892.028
    
    [GRAPHIC] [TIFF OMITTED] 44892.029
    
    [GRAPHIC] [TIFF OMITTED] 44892.030
    
    [GRAPHIC] [TIFF OMITTED] 44892.031
    
    [GRAPHIC] [TIFF OMITTED] 44892.032
    
    [GRAPHIC] [TIFF OMITTED] 44892.033
    
    [GRAPHIC] [TIFF OMITTED] 44892.034
    
    [GRAPHIC] [TIFF OMITTED] 44892.035
    
    [GRAPHIC] [TIFF OMITTED] 44892.036
    
    [GRAPHIC] [TIFF OMITTED] 44892.037
    
    [GRAPHIC] [TIFF OMITTED] 44892.038
    
    [GRAPHIC] [TIFF OMITTED] 44892.039
    
    [GRAPHIC] [TIFF OMITTED] 44892.040
    
    [GRAPHIC] [TIFF OMITTED] 44892.041
    
    [GRAPHIC] [TIFF OMITTED] 44892.042
    
    [GRAPHIC] [TIFF OMITTED] 44892.043
    
    Mr. Horn. Now, let me just finish on a few questions. Some 
of these, the staff will send them directly to you, and we will 
put them in the record at this point. I'm just wondering, if 
there is one thing we ought to take a look at, it's probably 
the Citizens Guide to the Freedom of Information Act, which the 
subcommittee and full committee take great interest in, since 
it is prepared between the Congressional Research Service and 
this committee staff.
    Mr. Kelley, you are responsible for marketing 
noncongressional publications. How does GPO go about promoting 
publications that have a broad interest to the public and has 
the Citizens Guide, essentially, on the best sellers list? What 
is your best sellers list? What's your top 10? You might want 
to file it for the record, if you don't have it.
    Mr. Kelley. Mr. Chairman, the Citizens Guide, for 
congressional documents, is indeed the very best.
    Mr. Horn. This is the one to the Freedom of Information Act 
that you're thinking of.
    Mr. Kelley. Right.
    Mr. Horn. Yes.
    Mr. Kelley. It is indeed a very good seller among 
congressional documents. It, in the last 18 months, has sold 
some, I think, 3,200 copies, and that's in addition to the 
distribution to the depository libraries of another 1,000 
copies. So it is a very good seller.
    We promote these things by including them in catalogs 
circulated by the Government Printing Office. We promote them 
with press releases. We promote their existence in direct 
mailings, sometimes in conjunction with the publishers of these 
documents. We have a fax system which alerts the public to new 
documents that have been published. And on our World Wide Web 
site we now have a complete reference file of all documents 
available for purchase, and it also permits the public to order 
electronically through the Web sites.
    So we have a large number of marketing channels for making 
the public aware of these documents.
    The best sellers list, we do have a best sellers list, and 
it tends to be seasonal. Recently, to give you a couple of 
examples, the IRS publications, this is from December, were 
very popular. There are Health and Human Services publications, 
like the one on international vaccination. There are things 
like educational statistics. And there are diet and other 
publications that get wide circulation, at very low cost, but 
quite popular with the American public.
    Mr. Horn. What has happened to the Agricultural Yearbook? 
Is that a dead duck, or is that still going?
    Mr. Kelley. It is, I believe, no longer in print. I would 
have to check on that, but I don't think that the Agriculture 
Department is producing it the way they used to.
    Mr. Horn. What has happened to some of the documents you 
printed 10, 20, 30, 40, 50 years ago, that might be 
congressional documents? Are they being thrown away, destroyed, 
or are you going to put them up for sale so some of us that 
collect those can go over and pay you a little money for them?
    Mr. Kelley. Of course, they are still available in 
depository libraries, regional libraries. We have just, in the 
last year, under a lot of pressure in our sales program, 
adopted a policy of keeping a minimum stock. Because for the 
first time last year, in 13 years, the sales program lost 
money, for a number of reasons. But some of them are the things 
that I documented earlier, people putting controls over more 
popular publications and removing them from our program.
    So, on an ordinary volume, we would have about an 18-month 
supply. Some more historic things, the U.S. Senate History, 
authored by Senator Byrd, and others, we would keep a 10-year 
supply. But we have made a commitment, when there is a public 
demand, to reprinting. So we will respond to that.
    Mr. Horn. Very good.
    Mr. DiMario. May I add to that?
    Mr. Horn. Yes.
    Mr. DiMario. Prior to 1978, we received direct 
appropriations for our workforce and facilities in the sales 
program. In 1978, the law was modified to put us on a self-
sustaining basis, so we must recover the cost of all of our 
publications through that sales program.
    The result of that is that in the storage, long-term, of 
publications, there are constant costs being added to the 
publication, and it reaches a point where it is easier to look 
toward potential reprint at a later date or to recover the 
information in some other way. So we have had to slim our 
inventory down substantially, in the process.
    Mr. Horn. Very good. I have no further questions.
    I am going to ask the ranking member, Mrs. Maloney from New 
York, if she has any questions?
    Mrs. Maloney. Sure. Thank you.
    Good morning.
    Mr. DiMario. Good morning.
    Mrs. Maloney. Mr. DiMario, I'd just like to understand a 
little bit about the electronic printing procurement program at 
GPO. I understand that it's extremely efficient. What is the 
average turnaround time, from the time that an agency submits a 
printing job to the GPO and getting a final printed document? 
What is your turnaround time?
    Mr. DiMario. Well, I can't tell you an average time, 
because all documents are quite different. You can have a 10-
page document, and you can have a 2,000-page document.
    Mrs. Maloney. Just say, for instance, a 2,000-page 
document, what is the turnaround time?
    Mr. DiMario. Well, we attempt, on any document, to produce 
the document within the timeframe that the agency asks us to 
produce it. They give us a time that they need the publication 
distributed to them.
    When the order comes into our office, the requisition comes 
in, our customer service group looks at that, places it with 
our printing procurement folks. It then goes out on our bid 
information system so that it's up electronically, and people 
can then bid on that.
    We normally are not producing the publication in-house for 
the agencies. The bid time has, depending on the product, a 
certain timeframe. It may be a 3-day bid period because the 
agency needs the document in 2 weeks. But if they need it a 
longer period down the road, it will be a longer term.
    When we go out with that bid information, the contractors 
can then bid on the product. We go through awarding the 
contract to the contractor, and the contractor, in bidding on 
it, is assuring us that they will deliver the product to the 
agency in the timeframe that we have asked for. We have a 95 
percent timely delivery capability, and that is what our record 
is, from the printing contractors.
    But as to a specific job, to give you an average turnaround 
time is just difficult to do.
    Mrs. Maloney. So how much of your printing do you do in-
house now?
    Mr. DiMario. We do approximately 25 percent of the printing 
in-house; 75 to 80 percent is done through the procured 
process.
    Mrs. Maloney. And what is the average cost, in a general 
sense, of a job printed in-house by GPO versus the average cost 
of a job printed through the competitive system? Is the 
competitive system more or less than printing in-house in GPO?
    Mr. DiMario. It is, generally speaking, cheaper to procure 
the product on the outside.
    Mrs. Maloney. Really. It's cheaper outside. That's 
interesting.
    Mr. DiMario. Yes.
    Mrs. Maloney. And what determines whether an agency 
printing job goes into the competitive process or gets printed 
in-house by GPO? And can an agency be assured that its job will 
go into the competitive system?
    Mr. DiMario. What determines it is whether or not the 
product is, in fact, a procurable product. Not all products are 
procurable.
    If you look at the true cost, as opposed to just this 
average statement of whether something is cheaper on the 
outside, on an average, or cheaper on the inside, on an 
average, the jobs that we do in-house, we believe, are not 
generally procurable jobs, that these are jobs that require 
enhanced security, a great deal of interface with the agency 
that is creating the information, that we need to go back and 
forth with that agency, and there are timeliness issues that 
are concerned with it.
    So let's take, for example, we do the postal cards in-house 
for the Postal Service. That's a repetitive job. It's done on 
particular dedicated equipment. We believe we get the lowest 
cost and we get the security of this particular document for 
the Postal Service. They, obviously, believe the same thing. 
They have been with us for many, many years, and we have 
dedicated equipment to do that.
    We do the same thing for passports. That is a dedicated 
structure requiring high security, and we deal with the 
customer agency on that.
    Mrs. Maloney. Now, what is the procedure now? I understand 
that the Vice President's reports on the National Performance 
Review were not printed through GPO. Say I'm an agency and I 
decide I don't want to go through GPO. Do they have to go 
through GPO?
    Mr. DiMario. That's what the law requires.
    Mrs. Maloney. The law requires it.
    Mr. DiMario. Yes.
    Mrs. Maloney. And I understand now that you charge an 
agency a 6 percent fee for each printing job?
    Mr. DiMario. That's correct.
    Mrs. Maloney. What would it cost an individual agency to 
run a procurement operation similar to yours? Could they do it 
for 6 percent of the printing cost for the year, do you think?
    Mr. DiMario. We don't believe so. The 6 percent encompasses 
an enormous range of services to the agency.
    Mrs. Maloney. Yes, I can imagine.
    Now, if an agency procures with you, and then you tell them 
you have competitively bid it and Company X has gotten the job, 
what if the agency has had a bad experience with Company X and 
doesn't like the quality of their work, can they reject that 
printer, based on quality of work, and ask for another one?
    Mr. DiMario. We look at the performance record of each 
contractor. And if the agency has expressed a negative view and 
they have documented all of that bad performance, that is 
considered in the issue of whether or not a contract gets 
awarded.
    We have a system of debarment that mirrors the debarment 
structure in the rest of Government. Contractors have property 
rights in contracts when they perform those things, and they 
have a right to contest issues. So we look at performance 
against a standard. And if the contractor's performance is bad 
for a particular reason, we will note that in the awarding of 
contracts. They may not get the job, but we do not 
automatically debar them.
    Mrs. Maloney. Mr. DiMario, how do you keep the performance 
record of a contractor? Do you computerize it?
    Mr. DiMario. Yes, it's all computerized.
    Mrs. Maloney. It's all computerized?
    Mr. DiMario. Yes, job by job.
    Mrs. Maloney. Job by job, but then is it central?
    Mr. DiMario. They are all computerized.
    Mrs. Maloney. Job by job, or centralized, too?
    Mr. DiMario. It's all centralized. We have a procurement 
information control system, and the data that we collect on 
individual contractors and contract performance is put into 
that.
    Mrs. Maloney. So contract performance data is entered into 
a centralized, computerized system?
    Mr. DiMario. To the best of my knowledge, yes.
    Mrs. Maloney. Now, I am interested in this. I would like to 
ask, and maybe we will put it in a series of questions, if you 
would get back to the committee on how you track performance 
data. I can understand how you can have one contractor, you've 
got it over there, but how do you put it into a centralized 
system that a procurement officer then can plug into to see 
what the performance data is in the past?
    Do you understand?
    Mr. DiMario. Absolutely.
    Mrs. Maloney. I would like to see the paperwork on it.
    Mr. DiMario. And we do that for every contract. We have 
that data, and we look at it, but we cannot automatically debar 
someone simply because the agency has said they don't like 
them.
    Mrs. Maloney. I understand that.
    Now, I understand that, historically, one of the reasons 
that we started to use GPO was to make sure that we had copies 
of Government work for the library, for the history of our 
country.
    Mr. DiMario. That's correct.
    Mrs. Maloney. And that this was really put into place to 
really control printing, make sure that documents were kept, so 
the history of the work of the various agencies was kept in a 
good way, centrally, for our country.
    Do you think it would work if we could just require that 
the various agencies deposit their work into the library? Do we 
have to go through GPO to make sure the work gets into library?
    Mr. DiMario. Well, I would submit, the current law requires 
that if an agency does not come through GPO, and has been 
granted a waiver to do their own work, that they are required 
now to supply the depository libraries with copies of their 
publications at their own expense. That is not being done, and 
that is one of the great problems that we have had over and 
over again. Agencies are not following the law as it exists.
    Mrs. Maloney. That is a problem, if they are not following 
that.
    Mr. DiMario. And that's the current law, that's not a 
change in the law. If they come through us, we charge those 
publications that go to the depository libraries to our 
salaries and expense account for the depository libraries. That 
is some $30 million that the Superintendent of Documents 
administers to put publications into the depository system. But 
agencies that are not coming through GPO are still required to 
go to the depository structure, through the Superintendent of 
Documents, at their own expense. They have not done that.
    An accommodation of a number of years ago was for the 
agencies to give us two copies of their publications, which we 
would then catalog and index and turn into microfiche so we 
could distribute it to the libraries, and they would not bear 
the expense. That's not what the law says; it was a pure 
accommodation, administratively. And we still can't get them to 
do it.
    Mr. Kelley. If I might add something here, we have, for 
depositories, they may select among some 6,000 classifications 
of documents. They do this every year. We put this into a 
computer. We have somebody in our procurement office, every 
time an agency orders printing, we immediately put into our 
system a requirement for the required number of documents to 
satisfy the depository system.
    If each agency dealt independently with each library, there 
would be millions of transactions that the agencies and the 
individual libraries would have to manage themselves.
    Mrs. Maloney. My time is up, but I have one short, cost-
saving question.
    Mr. DiMario. Sure.
    Mrs. Maloney. I would like to ask the chairman if I can ask 
it, because my time is up?
    Mr. Horn. Certainly.
    Mrs. Maloney. In your testimony, you indicated that a 
$30,000 Department of Labor printing job could have been 
procured through GPO for $3,000, and that you could have saved 
the department another $2,500 through your cost-saving 
measures.
    Could you describe for us those cost-saving measures, and 
would the agency have been required to use those measures if 
the document had been printed by GPO?
    Mr. DiMario. Well, had they come directly to GPO, GPO would 
not have printed the publication. It would have placed the 
contract out with a contractor around the country. And 
following their specific specifications, we would have gone and 
purchased that for the $3,000, the statement that you made. 
That was acquired through a quick printer somewhere in their 
area. The agency had an issue of how quickly they needed the 
turnaround on a document, and so they went to the local 
printer.
    The issue in the publication, in terms of measures that we 
would take to reduce it to this even lower level, this $500-
level, it would still be a procured job. It would not be 
through GPO. It would still be on one of our contracts, but we 
would cut it down to one color, as opposed to a multiple-color 
document. We would use a different binding on it. We would have 
a longer lead time in order to meet that requirement.
    Had they come to us in a timely fashion, with a long enough 
lead time, and changed their own external requirements, not 
information requirements, not what was in the publication 
itself, but simply the use of single color as opposed to 
multiple color, you could change the cost of that publication 
dramatically. But even using their specifications, we could 
have purchased it for one-tenth the price.
    Mrs. Maloney. Last year, when we were considering the 
reports elimination bill that passed out of the subcommittee, 
Representative Dunn proposed an amendment that would require 
any printing job of over 1,000 pages to go through the GPO. 
Some of us thought that was a little extreme, because very 
short seminar notice from each office would have to be printed 
by GPO.
    But could you explain to me what a reasonable page limit 
would be, and explain to me the purpose of Representative 
Dunn's amendment and what a reasonable page limit would be?
    Mr. DiMario. I don't know what page limitation is 
reasonable. You can deal in dollars. The limitation that I'm 
aware of that was being put into the law, or that people were 
attempting to negotiate, was one that was publications that 
cost less than $1,000. Well, $1,000 for printing buys an awful 
lot of printing.
    And we can buy, competitively, a much larger quantity of 
printing for that $1,000 than an agency simply going out on a 
sole source basis, and going out on the outside and buying 
that. There are printing contractors around that will come in--
because we group these orders together. We would take that 
$1,000-job, and we might have $10,000-jobs that look the same 
in the various features to it, and we can group them together, 
put them out as a single contract, and a contractor will bid on 
that and give us a very, very low price.
    The agency will get its requirements, each of the agencies 
will get them, and they will save money on it. And the issue 
that we always have is timeliness of delivery. From an agency 
standpoint, many of them just simply want to go out and buy 
from the closest vendor. If they come to us and ask for a 
waiver, and they give justification for the waiver to go out 
and do that, and it seems that it's not something we can buy 
more effectively than they can, we will grant the waiver and 
allow that to happen.
    Does that answer your question?
    Mrs. Maloney. Thank you. I thank the chairman for giving me 
a little bit of extra time.
    Mr. Horn. I thank the gentlewoman from New York.
    We are running a little behind. The rest of the questions 
will be submitted to you, if you don't mind.
    Mr. DiMario. Yes, sir.
    Mr. Horn. You are still under oath in answering them. We 
will put them in the record following this insertion, which is 
the memorandum I sent members of the committee on May 5, 
including the attachment of Assistant Attorney General Walter 
Dellinger and the memorandum of May 31, 1996, ``Government 
Printing Office Involvement in Executive Branch Printing,'' so 
everybody can see that.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44892.044
    
    [GRAPHIC] [TIFF OMITTED] 44892.045
    
    [GRAPHIC] [TIFF OMITTED] 44892.046
    
    [GRAPHIC] [TIFF OMITTED] 44892.047
    
    [GRAPHIC] [TIFF OMITTED] 44892.048
    
    [GRAPHIC] [TIFF OMITTED] 44892.049
    
    [GRAPHIC] [TIFF OMITTED] 44892.050
    
    [GRAPHIC] [TIFF OMITTED] 44892.051
    
    [GRAPHIC] [TIFF OMITTED] 44892.052
    
    [GRAPHIC] [TIFF OMITTED] 44892.053
    
    [GRAPHIC] [TIFF OMITTED] 44892.054
    
    [GRAPHIC] [TIFF OMITTED] 44892.055
    
    [GRAPHIC] [TIFF OMITTED] 44892.056
    
    [GRAPHIC] [TIFF OMITTED] 44892.057
    
    [GRAPHIC] [TIFF OMITTED] 44892.058
    
    [GRAPHIC] [TIFF OMITTED] 44892.059
    
    [GRAPHIC] [TIFF OMITTED] 44892.060
    
    [GRAPHIC] [TIFF OMITTED] 44892.061
    
    [GRAPHIC] [TIFF OMITTED] 44892.062
    
    [GRAPHIC] [TIFF OMITTED] 44892.063
    
    [GRAPHIC] [TIFF OMITTED] 44892.064
    
    [GRAPHIC] [TIFF OMITTED] 44892.065
    
    [GRAPHIC] [TIFF OMITTED] 44892.066
    
    Mr. DiMario. Thank you, Mr. Chairman. May I say one thing?
    Mr. Horn. Yes.
    Mr. DiMario. I would like to invite you, Mr. Chairman, and 
all members of the committee and staff, any staff that you 
want, to come down and visit us at the Government Printing 
Office, and see what we do and how we do it, in terms of 
electronic products, what we do in-house. I think it might be 
revealing to you that we operate quite a modern facility, and 
we do act, in my judgment, for the benefit of the taxpayers.
    Mr. Horn. Well, I thank you very much, Mr. DiMario and 
Superintendent Kelley.
    Mr. Holstein, I'm sorry we didn't call on you, but I 
appreciate the role you are doing there as the Chief Financial 
Officer/Comptroller. We have high regard for the Chief 
Financial Officers throughout the Federal Government, and that 
includes the legislative branch. So thank you for joining all 
of us.
    Mr. Holstein. Thank you, Mr. Chairman.
    Mr. Horn. Thanks very much for coming.
    If the next panel will come forward, we will begin the 
testimony on the panel: Daniel S. Jones, Robert L. Oakley, and 
Wendy Lechner.
    OK. If you would all rise and raise your right hands?
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all three witnesses have 
affirmed.
    We will begin with Daniel S. Jones, the president of 
NewsBank, Inc., appearing on behalf of the Information Industry 
Association.
    I might say to staff, all of the relevant resumes will be 
included after we introduce each witness. And, of course, your 
full statement is put in after we introduce you, and we would 
like you to summarize it for us, so we can get down to 
questions and have a dialog.

 STATEMENTS OF DANIEL S. JONES, PRESIDENT, NEWSBANK, INC., ON 
   BEHALF OF THE INFORMATION INDUSTRY ASSOCIATION; ROBERT L. 
OAKLEY, WASHINGTON AFFAIRS REPRESENTATIVE, AMERICAN ASSOCIATION 
  OF LAW LIBRARIES; AND WENDY LECHNER, LEGISLATIVE DIRECTOR, 
              PRINTING INDUSTRIES OF AMERICA, INC.

    Mr. Jones. Thank you very much, Mr. Chairman, and good 
morning.
    NewsBank is a mid-sized news information publishing 
company. My objective today is to bring you an example of the 
type of problem which occurs when an agency of the Government 
ignores the Paperwork Reduction Act.
    I'm not an expert on PRA, but I want to relate an injustice 
that has injured my company, that has occurred by an agency not 
adhering to PRA. The bottom line of my presentation is that the 
Government, in the form of an agency, specifically the NTIS, is 
competing with my business by republishing material which is 
not even Government information. It is copyrighted private 
information that is being sold by the NTIS to my customers, 
which are university libraries.
    Now, as you can imagine, this disturbs me greatly; also, 
that my taxes and the taxes of my employees are subsidizing my 
competitor, the Government.
    I am very much in favor of the public access to Government 
information, on the other hand. I have been a trustee of my 
local public library for 10 years. I have been a member of the 
American Library Association for 25 years. All of my customers 
are librarians, and a number of my products actually facilitate 
the further use of Government information.
    Now, since the passage of PRA, my fellow IIA members and I 
have witnessed a number of agency initiatives that fly in the 
face of both the language and the intent of PRA. I can best 
explain these problems by citing the experiences of my company.
    I began NewsBank 25 years ago and now employ 400 people in 
Connecticut, Vermont, and Florida. It may surprise you to learn 
that my company, whose primary mission is to provide access to 
news sources, is so concerned about Government competition and 
Government information policy.
    In fact, when I started my company, I certainly didn't 
think that unfair competition for my business would arise from 
the Federal Government. Sadly, this is precisely what I have 
been battling for over a year now, with the World News 
Connection, a product published by NTIS. It is competitive 
because it contains much of exactly the same foreign news 
content that I publish with my business, and other publishers 
in our industry republish, exactly the same content.
    When NTIS created this competitive product about 2 years 
ago, it appears that they did not demonstrate any significant 
effort to comply with the PRA. As a result, much of its 
content, as I mentioned, duplicates the very same information 
which is found in my products and that of other publishers that 
are private.
    As I understand it, Congress intended NTIS to be subject to 
the PRA. In fact, the IIA and its members have consistently 
brought this situation to the attention of the officials at 
that agency and OIRA. Sometimes I wonder, however, if the 
agency's only real knowledge of PRA is how to avoid the act, 
not how to implement it.
    Best I can tell, NTIS did not take adequate efforts to give 
public notice about its plans for its new product, the World 
News Connection. If they did, it was only to determine whether 
they could capture a profitable market share.
    Now, another significant point that I would like to make is 
that when I publish a product, I must cover the entire cost of 
that product to bring it to market. Apparently, this practice 
is not required of the NTIS. As the director of NTIS has 
stated, the translation costs for the foreign news content in 
his product are at least subsidized by the taxpayers. That's a 
significant savings to NTIS, and one that I can't match.
    Now, on top of the ability to avoid covering some of the 
costs of publishing its competitive product, NTIS doesn't pay 
any taxes. About half of my profits are paid out to various 
Government taxing bodies. That means that I have to earn twice 
as much to improve my products for my customers as the NTIS.
    Now, in addition to these points, I don't know how a 
foreign news information product falls under the purview of the 
NTIS. It's not scientific; it's not technical; and it's not 
engineering information.
    For over a year I have worked to resolve this issue. I 
regret to tell you that no progress has been made. The NTIS 
World News Connection product is on the market. The harm has 
been incurred by my company, in terms of lost customers and 
potentially future sales.
    If this trend continues, my company may have to stop 
investing in some of its information products, and a 
significant number of my employees may lose their jobs. My 
company's case demonstrates, gentlemen, that unless a strong 
enforcement of the PRA is forthcoming, NTIS and other 
Government agencies will continue to compete with the private 
sector, to the detriment of private sector jobs.
    Now, is the loss of private company jobs the objective of 
an agency of the Department of Commerce? I certainly hope not. 
NewsBank's experiences with the World News Connection are 
especially relevant to today's hearings, in that NTIS has 
demonstrated the dangers that lie in not strictly enforcing PRA 
principles.
    I would also like to comment that, for the most part, the 
GPO seems to have been a responsible disseminator of Government 
information, but there is no guarantee that, in a rapidly 
changing information marketplace, tomorrow's GPO may not be 
pressured to act more like a competitor, nor that agencies will 
use the GPO to avoid the mandates of the PRA. As I see it, one 
certain way to avoid these potential problems is to require 
enforcement of PRA.
    My point, therefore, is that I believe passage of the PRA 
is not enough, not enough without enforcement. We would 
recommend that the subcommittee review the efforts that OIRA 
has taken to ensure that agency officials follow the specific 
requirements of the law. And gentlemen, we are very much 
appreciative of your starting that process by holding this 
hearing here today.
    The information industry does not make this request 
lightly, but only after attempts to deal directly with OIRA and 
several other agencies that have proven to be unsuccessful. My 
case, as I have described to you, as well as that of other 
industry situations, indicate that there appears to be a 
general lack of enthusiasm for the PRA within the executive 
branch, and only congressional intervention would seem to be 
the way to overcome this condition.
    In closing, I would like to express my appreciation to you 
all and the subcommittee, and for the opportunity to appear 
today. My goal in being here is to find a way to stop the 
Government from competing with my product, my taxpaying 
business. I hope you can help achieve that goal.
    Thank you.
    [The prepared statement of Mr. Jones follows:]
    [GRAPHIC] [TIFF OMITTED] 44892.067
    
    [GRAPHIC] [TIFF OMITTED] 44892.068
    
    [GRAPHIC] [TIFF OMITTED] 44892.069
    
    [GRAPHIC] [TIFF OMITTED] 44892.070
    
    [GRAPHIC] [TIFF OMITTED] 44892.071
    
    [GRAPHIC] [TIFF OMITTED] 44892.072
    
    [GRAPHIC] [TIFF OMITTED] 44892.073
    
    Mr. Horn. Well, we thank you. That's a very interesting 
story, and we will followup on that and see if that publication 
is in line with the mission of the agency. It seems to me, if 
they are into generalized aspects that aren't, as you suggest, 
in their scientific-technical role, I don't know what 
justification they can have for it, other than to make a couple 
of bucks.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44892.074
    
    Mr. Jones. That, and in addition, it's not Government 
information.
    Mr. Horn. Yes. That's right. So have you ever found where 
they have copied stories out of your own publication and just 
put it in theirs?
    Mr. Jones. No. They buy their information from the same 
suppliers of information that we do, exactly the same ones, and 
other companies in our industry also provide the same 
information and have for many years.
    Mr. Horn. OK. We will look into that case. It's very 
interesting.
    Mr. Jones. Thank you.
    Mr. Horn. The next presenter is Robert L. Oakley, the 
Washington Affairs representative of the American Association 
of Law Libraries, appearing on behalf of a coalition of library 
associations.
    And you are the law librarian at Georgetown. Welcome.
    Mr. Oakley. That's right, Mr. Chairman. Thank you very 
much. I am honored to be here today representing a coalition of 
about 80,000 members of six national library associations.
    I would like to request that our longer written statement 
be added to the public record of this hearing.
    Mr. Horn. Yes, all of those are automatic, the minute we 
introduce you.
    Mr. Oakley. Thank you, Mr. Chairman.
    Our statement covers three broad areas. First, we describe 
the library participation in the Federal Depository Library 
Program and the partnership role that these libraries play to 
make significant investment and provide the public with timely, 
no-fee, convenient access to Government information that they 
need in order to serve the needs of their users, in print and 
electronic formats.
    Second, our statement highlights the challenges and the 
opportunities presented by new technologies, about which we 
have spent much time this morning, and the need for central 
coordination to ensure that the life cycle of electronic 
Government information, from creation to preservation and 
archiving, is ensured.
    There must be a comprehensive, coordinated program to 
ensure permanent public access. We believe this is a natural 
and important extension of the public dissemination role of the 
Superintendent of Documents. Valuable Federal information 
disappears daily from the growing number of agency Web sites.
    Third, our statement discusses trends toward 
decentralization, privatization, and commercialization of 
Government information which, along with the increased use of 
electronic technologies to produce and disseminate information, 
have led to the growing crisis of Government information 
eluding the depository library program and therefore being less 
available to the public. The result is increased fugitive 
information and reduced public access, which we have talked 
about this morning.
    Our statement lists a number of specific publications that 
have eluded the depository library program. It also notes 
agencies, such as the National Technical Information Service 
and the National Library of Medicine, that currently do not 
provide access to their data bases for no-fee public access in 
depository libraries. We believe that information created at 
Government expense rightfully belongs in the Federal Depository 
Library Program.
    Mr. Chairman, we appreciate the opportunity to be here, and 
I want to summarize five additional issues that are addressed 
in our written testimony.
    First, the Depository Library Program is the most efficient 
system to provide the American public with Government 
information, and libraries have invested a great deal to 
provide the technological infrastructure necessary to help meet 
the information needs of their users in this electronic age.
    Second, there is a strong need for a central coordinating 
authority whose functions should include the development of 
much needed finding tools and the setting of standards for 
preservation and permanent public access to Government 
information.
    Third, some agencies, as we have heard this morning, 
currently do not fulfill their responsibilities under Title 44, 
thereby depriving Americans of information created at taxpayer 
expense.
    Fourth, Congress should provide a meaningful method of 
enforcement so that agencies will understand their obligations 
under Title 44 and will comply with the law.
    Fifth, moving to a ``cybergovernment'' is replete with 
challenges and requires additional costs, both for the 
Government to produce and disseminate information and, in 
addition, for libraries and citizens to be able to locate and 
use it.
    Mr. Chairman, we appreciate the opportunity to appear 
before you today, and we would be pleased to answer any 
questions you might have.
    [The prepared statement of Mr. Oakley follows:]
    [GRAPHIC] [TIFF OMITTED] 44892.075
    
    [GRAPHIC] [TIFF OMITTED] 44892.076
    
    [GRAPHIC] [TIFF OMITTED] 44892.077
    
    [GRAPHIC] [TIFF OMITTED] 44892.078
    
    [GRAPHIC] [TIFF OMITTED] 44892.079
    
    [GRAPHIC] [TIFF OMITTED] 44892.080
    
    [GRAPHIC] [TIFF OMITTED] 44892.081
    
    [GRAPHIC] [TIFF OMITTED] 44892.082
    
    [GRAPHIC] [TIFF OMITTED] 44892.083
    
    [GRAPHIC] [TIFF OMITTED] 44892.084
    
    [GRAPHIC] [TIFF OMITTED] 44892.085
    
    [GRAPHIC] [TIFF OMITTED] 44892.086
    
    [GRAPHIC] [TIFF OMITTED] 44892.087
    
    [GRAPHIC] [TIFF OMITTED] 44892.088
    
    [GRAPHIC] [TIFF OMITTED] 44892.089
    
    [GRAPHIC] [TIFF OMITTED] 44892.090
    
    [GRAPHIC] [TIFF OMITTED] 44892.091
    
    [GRAPHIC] [TIFF OMITTED] 44892.092
    
    [GRAPHIC] [TIFF OMITTED] 44892.093
    
    [GRAPHIC] [TIFF OMITTED] 44892.094
    
    [GRAPHIC] [TIFF OMITTED] 44892.095
    
    [GRAPHIC] [TIFF OMITTED] 44892.096
    
    [GRAPHIC] [TIFF OMITTED] 44892.097
    
    [GRAPHIC] [TIFF OMITTED] 44892.098
    
    [GRAPHIC] [TIFF OMITTED] 44892.099
    
    [GRAPHIC] [TIFF OMITTED] 44892.100
    
    [GRAPHIC] [TIFF OMITTED] 44892.101
    
    [GRAPHIC] [TIFF OMITTED] 44892.102
    
    [GRAPHIC] [TIFF OMITTED] 44892.103
    
    [GRAPHIC] [TIFF OMITTED] 44892.104
    
    [GRAPHIC] [TIFF OMITTED] 44892.105
    
    [GRAPHIC] [TIFF OMITTED] 44892.106
    
    [GRAPHIC] [TIFF OMITTED] 44892.107
    
    [GRAPHIC] [TIFF OMITTED] 44892.108
    
    [GRAPHIC] [TIFF OMITTED] 44892.109
    
    [GRAPHIC] [TIFF OMITTED] 44892.110
    
    [GRAPHIC] [TIFF OMITTED] 44892.111
    
    Mr. Horn. Well, we thank you very much. You have a very 
full statement that I have read, and I think that's very 
helpful to the dialog.
    Our last witness on this panel is Wendy Lechner, 
legislative director of the Printing Industries of America, 
Inc.
    Ms. Lechner.
    Ms. Lechner. Thank you.
    Mr. Chairman, members of the subcommittee, my name is Wendy 
Lechner. I am the legislative director of the Printing 
Industries of America. PIA is the Nation's largest graphic arts 
association, with 14,000 members. We appreciate the opportunity 
to testify.
    I would like to say at the start that there is no printing 
job performed at GPO, or elsewhere in the Federal Government, 
that cannot be contracted out. Such privatization could be done 
without sacrificing timeliness, quality, or security. We are 
totally confident that such contracting out would also save the 
Government money.
    Despite our belief that GPO can be closed and work 
contracted out, we do not believe it should be done without 
looking to the future. Congress needs to make a thorough 
evaluation of its printing, publishing, and information 
management needs, to ensure that it is getting the most bang 
for the buck and to ensure that the public has access to 
information produced with taxpayer funds.
    At present, printing services are fragmented to the point 
where it is impossible to determine how much and what type of 
printing and publishing services are underway. As a result, the 
Government cannot plan how best to carry out its information 
dissemination needs, nor can it determine whether more cost-
effective methods can be used in the future.
    PIA has several recommendations to provide a road map to 
ensure that both the Government and the public are getting the 
information they want, in the formats that are most useful, for 
the best price, in terms of dollars and efficiency. My written 
testimony outlines these recommendations in more detail, but I 
would like to briefly highlight several of them.
    First off, Congress should implement a strategic planning 
process to evaluate the printing, publishing, and information 
management needs of Congress and the public. It is Congress' 
responsibility to ensure that Government information is 
published and properly distributed. However, without a business 
plan that determines current and future needs, with respect to 
formats, quantity, equipment, and the like, Congress cannot 
possibly make sound decisions.
    Second, Congress should implement appropriate controls over 
Federal agency activities in printing, publishing, and 
information dissemination to ensure that the public is 
informed. Over the decades, we sometimes seem to have forgotten 
that the primary mission of the Government Printing Office, as 
well as Federal agency printing plants, is to produce public 
information.
    If Congress does not control the presses, or at least have 
a system of determining how public information is produced and 
disseminated, the public information network cannot properly 
function.
    And last, every Federal agency should be required to submit 
an annual plan as part of its budget request. The plan should 
indicate how the agency will fulfill its responsibilities to 
inform the public and how it intends to produce the work, 
whether in-house or by contract. If the work is to be performed 
in-house, the report should indicate the equipment required for 
the work and the cost of the work.
    Currently, no one has information about printing or 
duplicating equipment or facilities owned by any Federal 
agency. However, since some have speculated that Federal 
printing and information expenditures may exceed $3 billion, it 
would appear that significant budget savings may result if 
better information and management techniques were instituted.
    In closing, I would like to point out that we continue to 
believe that the best way to provide information services is 
through the private sector. GPO has successfully operated a 
centralized procurement system that should continue to evolve 
and improve. Contracting out printing services works, both in 
terms of providing taxpayer-financed information to the public 
and in terms of cost savings to the Government.
    Thank you for letting me testify today, and I would be 
happy to answer any questions.
    [The prepared statement of Ms. Lechner follows:]
    [GRAPHIC] [TIFF OMITTED] 44892.112
    
    [GRAPHIC] [TIFF OMITTED] 44892.113
    
    [GRAPHIC] [TIFF OMITTED] 44892.114
    
    [GRAPHIC] [TIFF OMITTED] 44892.115
    
    [GRAPHIC] [TIFF OMITTED] 44892.116
    
    Mr. Horn. Well, we thank you very much. That's a helpful 
perspective.
    Let me ask one general question. I think most of you were 
here when the Public Printer and the Superintendent of 
Documents testified. Do any of you have a reaction to anything 
you heard in the exchange between members of the subcommittee 
and the witnesses? And if you would like to make some 
particular perspective, please go ahead.
    Mr. Oakley.
    Mr. Oakley. Yes, sir. Thank you for the opportunity to 
comment.
    I did have a number of reactions, but one that struck me 
most forcefully was what seemed to me--and I spoke to 
Superintendent of Documents Wayne Kelley about this at the 
break--to be an understatement of the impact of the transition 
to electronics, that Mr. Owens had asked about, on libraries 
and on their users. I think the impact is indeed significant, 
and it is creating a significant burden on both libraries and 
on their users.
    First of all, there is a great deal of information that is 
only available electronically, or at least only available in a 
timely manner electronically. One specific example that came to 
my attention in my library was the annual report of the U.S. 
Sentencing Commission. I had a faculty member who--in her own 
words--was ``tearing her hair out'' trying to find this 
particular publication.
    Indeed, we checked, and the latest was not available 
through the Government Printing Office; the latest we had in 
our library was a 1994 version in microform. But I went to the 
agency's Web site, and sure enough, there it was on the Web 
site. And I thought, OK, the 1995 is available. But, 
unfortunately, it was probably about 500 pages long. Well, we 
weren't going to sit there and print out a 500-page document so 
that a faculty member could get access to this document.
    In the end, we didn't have the microfilm; we didn't have 
the latest edition. It was only available on the World Wide 
Web. I did call the agency, and I requested a copy directly 
through them, but it was not available through the depository 
program.
    There are other problems that are created by limitations of 
technology. How many computer work stations does the library 
have? Some libraries are more well-endowed than others and can 
afford access to the World Wide Web; some cannot. So the impact 
of this transition is significant.
    And you, yourself, alluded earlier to the issue of the 
Congressional Record, and, indeed, I must add the U.S. 
Congressional Serial Set, which is creating a significant 
problem, as well. So I think that just needs to be emphasized.
    Mr. Horn. Let me ask you, since you live in the most 
library-rich resource area in the world, namely, Washington, 
DC, and the great Library of Congress, are you a Federal 
depository also, at Georgetown?
    Mr. Oakley. Yes, we are.
    Mr. Horn. How about the other universities in the area? Are 
you the only one?
    Mr. Oakley. I think most of the universities in the area 
are, as well as all of their law schools.
    Mr. Horn. See, in the State of California, I think the only 
full depository is the California State Library. And maybe 
there's one in the south; I'm not sure where it is. Now, there 
are various Federal depositories. I'm not sure they get 
everything that they ought to get.
    Mr. Oakley. I must add that we are not a regional 
depository, which would be a full depository. We only get a 
very select number of publications. And indeed, the 
Congressional Record and the Serial Set are only available to 
the regionals now, and therefore we, as a law library, cannot 
get those. That, as you might imagine, for a law library, is a 
serious problem.
    Mr. Horn. Yes. I agree with you, and I don't know why we're 
so skimpy on that. It seems to me any basic university 
conducting research, at the undergraduate or graduate level, 
needs those basic tools of our major institutions.
    Mr. Oakley. You would think so.
    Mr. Horn. So we will try to prod around here, either 
Appropriations, Joint Committee on Printing, as the case may 
be.
    You had a question, I think, Ms. Lechner.
    Ms. Lechner. Yes, I did. In fact, one thing I wanted to 
mention, when the issue was discussed about security and 
timeliness, with respect to using private sector printers, it 
is odd that Boeing, Microsoft, and Wall Street can rely on our 
timeliness and security, but the Government cannot. So I would 
like to point out that we think that we do a pretty good job. 
I'm not aware of any security violations our industry has ever 
been accused of.
    On the other hand, I would like to mention the fact that 
Mr. Davis had brought up the question of small business 
contracting. I would like to point out that we think GPO does 
the best job of all the agencies in ensuring that small 
businesses get a huge, lion's share of the work. And we think 
that they are doing an excellent job in that area.
    Mr. Horn. Thank you.
    Mr. Jones.
    Mr. Jones. Just very quickly. I believe, and my industry 
association does, that the underlying Government information 
should be available to everybody with no restrictions. Our job 
is to add value and enhance that information. That's what we 
are all about. We are, however, very much opposed to exclusive 
contracts which remove this information from the public's 
access.
    [The information referred to follows:]

    Much criticism has been leveled recently against 
arrangements between Federal agencies and private sector 
companies which, by giving one company exclusive rights to 
government information, remove the underlying government data 
from the public domain.
    In his testimony, Mr. Jones very succinctly articulated 
IIA's position on this issue and we simply want to restate it 
for the record. IIA has long held the position that underlying 
government information created or collected by federal agencies 
and meant for public inspection should be available to any and 
all users on an equal and timely basis for the cost of 
dissemination. The Association is opposed to arrangements which 
place any restrictions on the collection or use of the 
information, including exclusive arrangements.

    Mr. Horn. In other words, you would let anybody that wants 
to add their version of value-added in indexing, in content 
analysis, and all the rest of it?
    Mr. Jones. That's what our industry is all about.
    Mr. Horn. Yes. That's very interesting.
    Does the gentleman from New York wish to question the 
witnesses?
    Mr. Owens. Do any of you think that the GPO should be part 
of the executive branch and we should dispense with the Joint 
Committee? Have you found the Joint Committee adequate to 
addressing your grievances?
    Ms. Lechner. From our perspective, there are any number of 
ways to make sure information is disseminated. However, I 
think, in hearings of this committee in past years on the 
issues that have been brought forward, that even Thomas 
Jefferson indicated it might be wise that public information be 
in the hands of Congress, because you are elected 
Representatives, and therefore you are more closely linked to 
the public who have the right to the information.
    We believe that there will always be a role for Congress in 
dealing with public printing.
    Mr. Owens. Mr. Jones.
    Mr. Jones. Personally, I feel it should stay where it is. 
We will--my industry association--I will submit a written 
comment on that question, as well, Mr. Owens.
    [The information referred to follows:]

    IIA has not taken an official position regarding the 
transfer of GPO to the executive branch. However, for many 
years, IIA has advocated that the legislative branch, in which 
GPO is located, adopt and comply with information dissemination 
policies similar to those included in OMB's circular A-130 and 
now codified in 44 USC 3506(d). Transforming GPO to an 
independent, executive branch agency would automatically make 
it subject to the same dissemination principles. Regardless of 
where GPO is located, IIA believes it and the other legislative 
branch entities including Congress should, in general, be 
subject to these dissemination principles.

    Mr. Owens. Your particular problem, though, what due 
process have you had with respect to NTIS publishing material?
    Mr. Jones. What have I done, specifically? I have worked 
primarily through my congressional delegation to try to get to 
the Department of Commerce. We have a number of letters that we 
have submitted through--that our Senator, Senator Pat Leahy, 
has written to NTIS--actually, to the Department of Commerce, 
which then passed them on to NTIS.
    I assume that OIRA has also seen those, but I have no 
evidence of that. There has been never any comment along those 
lines of the enforcement being looked at.
    Mr. Owens. So you have not gotten any satisfaction from 
your appeals to NTIS?
    Mr. Jones. No action whatsoever.
    Mr. Owens. Is there another level? Where do you go next, to 
the White House? Would the White House be able to help?
    Mr. Jones. I don't know. That might be a good suggestion. 
Thank you.
    Mr. Owens. Should we not have some other way of handling 
it, so that some power to deal with your problem would be 
somewhere else?
    Mr. Jones. I really cannot answer that question, because I 
don't know the ins and outs of the Government well enough. 
Personally, I'd like to see anything that can be done, done. I 
can understand, however, that Congress, with its funding 
responsibility, as I understand it anyway, seems to be an 
appropriate place to control that sort of thing.
    Mr. Horn. Without objection, we will put in the record at 
this point the exchange of correspondence that you have had, or 
others have had in your association, with the Office of 
Regulatory Affairs and the Office of Management and Budget.
    And staff will pursue trying to bring this to a head as to 
what are their policies in this area, and is this a violation 
of the memoranda that the directors have issued over time, and 
what is the basis for using the Paperwork Reduction Act as an 
excuse for this, if that, indeed, is their basis?
    So, if you have those and staff can work it out with you, 
we would like an exhibit at this point in the record, without 
objection.
    Mr. Jones. We will. Thank you very much.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44892.117
    
    [GRAPHIC] [TIFF OMITTED] 44892.118
    
    [GRAPHIC] [TIFF OMITTED] 44892.119
    
    [GRAPHIC] [TIFF OMITTED] 44892.120
    
    [GRAPHIC] [TIFF OMITTED] 44892.121
    
    [GRAPHIC] [TIFF OMITTED] 44892.122
    
    [GRAPHIC] [TIFF OMITTED] 44892.123
    
    [GRAPHIC] [TIFF OMITTED] 44892.124
    
    [GRAPHIC] [TIFF OMITTED] 44892.125
    
    [GRAPHIC] [TIFF OMITTED] 44892.126
    
    [GRAPHIC] [TIFF OMITTED] 44892.127
    
    [GRAPHIC] [TIFF OMITTED] 44892.128
    
    [GRAPHIC] [TIFF OMITTED] 44892.129
    
    [GRAPHIC] [TIFF OMITTED] 44892.130
    
    [GRAPHIC] [TIFF OMITTED] 44892.131
    
    [GRAPHIC] [TIFF OMITTED] 44892.132
    
    [GRAPHIC] [TIFF OMITTED] 44892.133
    
    [GRAPHIC] [TIFF OMITTED] 44892.134
    
    [GRAPHIC] [TIFF OMITTED] 44892.135
    
    [GRAPHIC] [TIFF OMITTED] 44892.136
    
    [GRAPHIC] [TIFF OMITTED] 44892.137
    
    [GRAPHIC] [TIFF OMITTED] 44892.138
    
    [GRAPHIC] [TIFF OMITTED] 44892.139
    
    [GRAPHIC] [TIFF OMITTED] 44892.140
    
    [GRAPHIC] [TIFF OMITTED] 44892.141
    
    [GRAPHIC] [TIFF OMITTED] 44892.142
    
    [GRAPHIC] [TIFF OMITTED] 44892.143
    
    [GRAPHIC] [TIFF OMITTED] 44892.144
    
    [GRAPHIC] [TIFF OMITTED] 44892.145
    
    [GRAPHIC] [TIFF OMITTED] 44892.146
    
    [GRAPHIC] [TIFF OMITTED] 44892.147
    
    [GRAPHIC] [TIFF OMITTED] 44892.148
    
    [GRAPHIC] [TIFF OMITTED] 44892.149
    
    [GRAPHIC] [TIFF OMITTED] 44892.150
    
    [GRAPHIC] [TIFF OMITTED] 44892.151
    
    [GRAPHIC] [TIFF OMITTED] 44892.152
    
    [GRAPHIC] [TIFF OMITTED] 44892.153
    
    Mr. Horn. The gentleman from New York.
    Mr. Oakley. If I might add?
    Mr. Owens. Go ahead.
    Mr. Oakley. I was just going to answer your question, but 
if you wanted to pursue this other issue, that's fine.
    Mr. Owens. There's a larger problem of a great amount of 
mushrooming messiness with respect to policy. Who can deal with 
fugitive publications, for instance? The law is supposed to 
require that they funnel the publications in a certain way so 
that they eventually get into the depository libraries.
    If they are not doing that, if agencies are not doing that, 
if electronic publishing formats allow them to flout the 
regulations even more or ignore them, then who can get a handle 
on this? Do we need a stronger Joint Printing Committee? Do we 
need some other body to supersede the Joint Printing Committee?
    Who should make the policies with respect to NTIS suddenly 
deciding it wants to do a certain kind of information product? 
The Census Bureau will only produce its information in 
electronic format.
    I mean, Congress has obviously allowed them to proceed on 
that, but if it does not work, and if it does what I think it's 
going to do, continue to deny census information to people who 
very much need it, continue to put our libraries in a very bad 
position, because many of them cannot handle electronic 
formats, and they very much need information about the census, 
who is it who is going to be able to respond to the grievances 
and the inadequacies, and be able to adjust it with some kind 
of authority, is the question?
    Ms. Lechner. Mr. Owens, we believe that it is Congress' 
role, and we would support anything that Congress did, in terms 
of legislation, to rein agencies in. Frankly, we think that GPO 
has done a good job with the publications that go through it. 
We think that agencies need to be reined in, and we believe 
that only Congress can do that.
    Mr. Owens. Well, ``Congress'' is too general. Congress 
ultimately creates some body. You need something which is 
closer to the situation, that has the authority of Congress 
behind it, which will keep up. These are changes that are 
taking place quite rapidly. For Congress to try, as a body, to 
stay on top of it, is insufficient. You need something beneath 
it, something with some real authority and power.
    Yes, Mr. Oakley.
    Mr. Oakley. Mr. Owens, we don't have an answer to the 
specific question as to who should do it, but we certainly 
agree with the general notion that was just expressed that 
there certainly needs to be greater attentiveness to the 
enforcement problem.
    Some have spoken about some kind of punitive chargeback to 
the agency when they fail to comply with the requirements of 
the law, but it is clear that stronger efforts need to be made 
in terms of enforcement. More and more documents are falling 
through the cracks and not getting into the depository system.
    Mr. Owens. What do you consider the long-term impact of the 
Census Bureau deciding it's only going to publish information 
in electronic format? What impact will that have on libraries, 
in your opinion, Mr. Oakley?
    Mr. Oakley. A lot of the data was already distributed in 
electronic format. For some researchers, that's fine, but for 
many users, that's just not enough. They need the kinds of 
paper documents that they have received in the past. They are 
not in a position to be able to, as we described earlier, 
download lengthy documents.
    This is really a cost-shifting kind of function. If people 
are being asked to print out lengthy documents at their 
terminals, instead of printing costs being borne centrally, at 
a relatively modest cost to the Government, it is being borne 
individually throughout the Nation, when documents are 
downloaded and printed time and time again, taking many hours 
to do that.
    It is not efficient, it is costly, and it is cost-shifting. 
I think it's a serious problem.
    Ms. Lechner. Mr. Owens, if I could followup to your earlier 
question with a little bit more detail. One of the things that 
we've often recommended is that Congress should make sure that 
the agencies who do their own printing have their authority 
rescinded. It could be done over a period of time, like 
sunsetting over 18 months. Then they can review to see whether 
they really need to have those facilities.
    We think that the problem with fugitive documents is that 
they are being printed in places where GPO has no control over 
them. Congress has given that authority, over the years, to 
these agencies to do this printing. It's time to reel them back 
in and say, if they are not going to abide by the requirements 
of Title 44, that they should not have the right to be 
printing. And we think that that would be a good start in 
clearing up some of the problems of documents getting away from 
the system.
    Mr. Owens. Yes, Mr. Jones.
    Mr. Jones. Yes. In our case, as I mentioned in my comments, 
my specific case, as I understand it, OIRA is there to enforce 
the Paperwork Reduction Act, and that, at least in my case, 
does not appear to be happening. And I think that that would be 
the opinion of many in my industry that there is an enforcement 
facility there, but it isn't working.
    Mr. Owens. What do you think, Mr. Jones, of the idea of 
requiring all operations, such as the census, if they insist 
that they are going to produce only in electronic format, 
becoming self-sufficient, in terms of they must pay their own 
costs?
    Mr. Jones. That's interesting.
    Mr. Owens. American taxpayers are being denied information 
in certain formats. It's only electronic format; it's no longer 
really public, as it was before. What would happen if we say, 
you must become self-sufficient, and charge people who are 
using it, and pay your own way?
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 44892.154
    
    Mr. Jones. Well, I think it depends on what's the cost 
involved. The cost of dissemination, I can certainly agree 
with: the cost of printing, the cost of producing a tape, the 
cost of putting it up on the Web. But the cost of producing the 
data, that's the Government's job. The cost of dissemination, I 
think, is fair to pass on.
    Mr. Owens. American taxpayers make a tremendous investment 
in the census data. We pay for it.
    Mr. Jones. Right, and they should get that.
    Mr. Owens. And it's outrageous to have a result where we 
can't even get the information because it's only in a format 
which relatively few people are able to utilize at this point. 
Let's not kid ourselves, we are not yet--the telecommunications 
revolution is really not taking place yet. We only talk about 
it.
    There are large numbers of places in the country that don't 
have the capacity, and it is costly. We ought to look at 
depository libraries and see what obligations Congress has to 
make funds available to guarantee that that cost of downloading 
and printing at the receiving end is borne partially by the 
Government. Otherwise, we are distorting the original mission 
of the Government depository libraries.
    Thank you very much, Mr. Chairman.
    Mr. Oakley. May I address that last question?
    Mr. Horn. Please.
    Mr. Oakley. Mr. Owens, the trend, and there has been 
something of a trend in recent years for the Government to 
charge for various information products, is a bit of a slippery 
slope. And like Mr. Jones, we accept the notion that sometimes 
there need to be charges, perhaps the marginal cost of 
dissemination or something like that, but the danger point 
comes when it erodes the Depository Library Program.
    So, for example, you have the NTIS, which has all of its 
publications, but they are not generally made available to the 
depository library program. So if you do move in that direction 
of some kind of low-fee access to that information, you do need 
to carve out an exception for depository libraries.
    Mr. Owens. Thank you.
    Let me clarify what I really was trying to say. The private 
sector could pay. At the same time, fees realized from the 
private sector should be utilized to guarantee that the public 
sector, like depository libraries, are available and kept 
available. That's where I was really heading.
    The private sector is going to use the data, repackage it, 
and sell it; they can pay a fee, and some of that fee can be 
used to offset the cost of the Government depository libraries 
having the same information available, in the usual formats, to 
everybody through the Government depository system.
    Mr. Oakley. Sounds good to us.
    Mr. Horn. This has been a very interesting dialog. I think 
we delude ourselves sometimes in that we think electronic 
access is going to solve the problem. And I think your example 
of that sentencing report is a good one, that somebody might be 
paying for those pages I don't know how many times. Usually, 
the poor student that is gouged by the university library, I 
might add. We would think that maybe you could get those rates 
down to 5 cents a page, not 10 and 25.
    You can see this is the professor in me talking, and I'm 
also the one that is the great user of the library. So I just 
have a strong feeling that, when you look at the economics of 
something like that Sentencing Commission report--and I'm going 
to ask the staff to followup on that--why we can't still issue 
those reports. If they also want to have an electronic data 
base, great, but somewhere the student should be able to touch 
it, see it, feel it, and find it.
    That's what I feel is sometimes missing. The wonders of 
electronic storage are great. And in terms of searches, they 
are certainly much better than the indexes I've seen in most 
Government publications. But what gets me is that, when an 
agency such as the Sentencing Commission only makes it 
available electronically, yet they do have them printed 
somewhere--and I guess that's where you get them.
    Did they print their own editions on this?
    Mr. Oakley. As near as I can tell, it was printed by GPO.
    Mr. Horn. A limited edition.
    Mr. Oakley. Yes, and it was being distributed in microform, 
and must have been caught up in some sort of backlog in the 
production of the microform product. So the depository 
libraries would, we presume--it's not in my library--yet--
eventually get the microform version, but not the paper 
version.
    But in the course of the backlog, the material had been 
published, it had been printed, but researchers didn't have 
access to it.
    Mr. Horn. I think Government documents should be 
immediately available, and anybody who wants to tap in and 
print them out on their own computer, that's wonderful. We 
shouldn't have to pay $500-an-hour lobbyists to get documents 
that the business or labor union or Government agency, local or 
State, and universities, and the individual want to read. I 
think that's a real encroachment on freedom of information.
    So you've been a very helpful panel. If you have some more 
thoughts on any of these as you drive home, or fly home, as the 
case may be, please write us. We will put those notes in the 
record. We keep the record open for a number of weeks, and any 
other exhibits you think would be useful so we can understand 
this and ultimately write an oversight report on the issue, we 
would appreciate.
    If there are no further questions by members of the 
committee, I am now going to thank the people that put the 
hearing together.
    J. Russell George is the staff director for the 
subcommittee, seated in the back, observing all; without him, 
it doesn't happen. The gentleman to my left and your right is 
Mark Uncapher, the counsel to the subcommittee, who was 
particularly responsible for this hearing. John Hynes, 
professional staff member, was in the room.
    Andrea Miller, our clerk, very helpful in putting these 
together
and picking up the pieces afterwards. David McMillen, on the 
Democratic side, Mark Stephenson, both professional staff 
members on the Democratic side. Jean Gosa, the clerk for the 
minority. And Barbara Smith, our court reporter today.
    Thank you very much. With that, this hearing is adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]

                                <greek-d>

</pre></body></html>
